<html>
<title> - PORT OF ENTRY INFRASTRUCTURE: HOW DOES THE FEDERAL GOVERNMENT PRIORITIZE INVESTMENTS?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






     PORT OF ENTRY INFRASTRUCTURE: HOW DOES THE FEDERAL GOVERNMENT 
                        PRIORITIZE INVESTMENTS?

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON BORDER
                         AND MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 16, 2014

                               __________

                           Serial No. 113-78

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                           



                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                                   ______
 
                      U.S. GOVERNMENT PRINTING OFFICE 
 
 91-930 PDF                  WASHINGTON : 2015 
 -----------------------------------------------------------------------
   For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Filemon Vela, Texas
Lou Barletta, Pennsylvania           Eric Swalwell, California
Richard Hudson, North Carolina       Vacancy
Steve Daines, Montana                Vacancy
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Curtis Clawson, Florida
                   Brendan P. Shields, Staff Director
                   Joan O'Hara, Acting Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Jeff Duncan, South Carolina          Sheila Jackson Lee, Texas
Tom Marino, Pennsylvania             Loretta Sanchez, California
Steven M. Palazzo, Mississippi       Beto O'Rourke, Texas
Lou Barletta, Pennsylvania           Vacancy
Curtis Clawson, Florida              Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (Ex             (Ex Officio)
    Officio)
            Paul L. Anstine, II, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
         Alison Northrop, Minority Subcommittee Staff Director
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security...................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Border and Maritime Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               Witnesses

Mr. John Wagner, Assistant Commissioner, Office of Field 
  Operations, Customs and Border Protection, U.S. Department of 
  Homeland Security, Accompanied by Mr. Eugene H. Schied, 
  Assistant Commissioner, Office of Administration, Customs and 
  Border Protection, U.S. Department of Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................    10
Mr. Michael Gelber, Deputy Commissioner, Public Buildings 
  Service, U.S. General Services Administration:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Mr. Oscar Leeser, Mayor, City of El Paso, Texas:
  Oral Statement.................................................    18
  Prepared Statement.............................................    19

                                Appendix

Questions From Honorable Tom Marino for John Wagner..............    41
Questions From Honorable Tom Marino for Michael Gelber...........    44

 
     PORT OF ENTRY INFRASTRUCTURE: HOW DOES THE FEDERAL GOVERNMENT 
                        PRIORITIZE INVESTMENTS?

                              ----------                              


                        Wednesday, July 16, 2014

             U.S. House of Representatives,
      Subcommittee on Border and Maritime Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, Duncan, Marino, Barletta, 
Clawson, Jackson Lee, and O'Rourke.
    Also present: Representative Keating.
    Mrs. Miller. Appreciate the witnesses taking their seats 
there. Both Mr. Marino and I actually have mark-ups in other 
committees this morning, so we are going to try to start right 
here on time.
    The Committee on Homeland Security, the Subcommittee on 
Border and Maritime Security will come to order. The 
subcommittee is meeting today to examine ports of entry 
infrastructure investment priorities, and we are certainly 
pleased today to be joined by Mr. John Wagner, of the U.S. 
Customs and Border Protection, who is accompanied by Mr. Eugene 
Schied--also CBP; and Mr. Michael Gelber, of the General 
Services Administration; and Mr. Oscar Leeser, who is the mayor 
of El Paso.
    Mr. Mayor, thank you very, very much for attending today. 
We certainly appreciate you traveling to Washington to join 
with us today.
    Our Nation relies on the efficient flow of commerce across 
our border, and it is the job of the U.S. Customs and Border 
Protection to not only facilitate commerce, but to also secure 
the homeland. To accomplish this mission, sufficient port of 
entry infrastructure is needed along with robust Customs and 
Border Protection staffing.
    CBP's important mission not only keeps America safe, but 
also ensures tens of thousands of American jobs and billions of 
dollars in commerce that come into our country through trade 
with Canada and with Mexico.
    A significant portion of the trade with Canada, our No. 1 
trading partner--actually our Nation's No. 1 trading partner--
and Mexico, who is our Nation's No. 2 trading partner, cross 
nearly 170 land ports of entry every day. It goes without 
saying that delays and backups caused by old and inadequate 
infrastructure cost businesses millions of dollars in lost 
opportunities.
    This is especially true with just-in-time manufacturing, 
critical to the auto industry, actually, in my home State of 
Michigan, so I am very familiar with that. With this being the 
case, quick cross-border movement is essential. Simply put, if 
auto parts don't make it across the border in a timely fashion, 
production lines can actually shut down.
    As our economy and security requirements grow, our ports of 
entry must be able to accommodate more trucks, more passengers 
and cargo, while at the same time allowing people who cross the 
border each day convenient and secure travel, as well.
    How CBP and the Federal Government as a whole prioritize 
the need to expand and to update existing ports while also 
planning for new ports is neither clear nor transparent, and I 
hope today's hearing will help us all understand this process 
clearly. While several land ports of entry projects were 
included in the President's most recent budget request, this 
committee had not been provided significant information on 
CBP's strategic plan for port of entry modernization and 
construction for future projects.
    This committee has asked repeatedly for a list of CBP's 
port of entry priorities, but thus far CBP had been unwilling 
to share that list with the committee, although I will note 
that just about 10 minutes ago we received a 4-year-old list, 
which I have over here, I am going to try to digest a bit.
    Many Members of this committee, myself included, have ports 
of entries in their districts, many of which need improvements. 
We would like to know where on the list these projects fall, 
and more importantly, how CBP determines how these projects 
rank, what the criteria is that they used. Surely that is 
something that CBP should and can defend to the membership of 
this committee.
    In my own district we have the Blue Water Bridge Plaza 
expansion, a project that has been in the planning stages 
actually for more than a decade. The city of Port Huron and the 
State of Michigan have worked tirelessly to meet the design and 
the planning demands of CBP through the process, which CBP has 
changed several times.
    Actually, about 150 homes and businesses in the proposed 
expansion site have already been condemned; they have been 
demolished to allow for a plaza to meet the needs of CBP. This 
destruction was based on a promise to build this needed plaza 
that has not been fulfilled as of yet. Actually, there are 
almost 60 acres of tax base that has been removed from the city 
and the county's tax rolls, putting great stress on a community 
that has been under further stress, of course, of a difficult 
economy.
    Our Canadian partners have actually done their thing. They 
have expanded their customs plaza on their side of the Blue 
Water Bridge, actually years ago, with the understanding that 
the American side of the bridge would also have a plaza 
upgrade.
    So we are shovel-ready, I suppose you could say, in Port 
Huron, but the funding never seems to come through. City and 
State leaders have worked with CBP and the Michigan Department 
of Transportation to revise the plan in an effort to reduce the 
cost.
    I mentioned the Blue Water Bridge. In full transparency, 
obviously I represent that area. But it is the second-busiest 
border crossing on the northern tier of our Nation, so it is 
not just some small crossing. It is an enormous twinned bridge 
there. Certainly, I think, you know, we should be certainly one 
of the projects that should be at the head of the line in the 
Northern Border for ports of entry.
    It is not an artist rendering; it is not a proposed 
crossing. Some that are being considered are, you know, in the 
design phases, or their--wherever they are in the engineer's 
drawings, but this is a project that actually exists--a bridge 
that actually exists, looking for a plaza.
    Certainly there are other ports of entry also waiting. But 
again, there has been no guidance from CBP on how to move 
forward with the project in my district or in so many other 
districts across the Nation.
    I am certainly mindful, as we all are, of the very tough 
budget times that we are in. As a Nation we need to make tough 
choices when it comes to the limited dollars available for 
ports of entry construction. But the crossing of goods and 
services across the border helps to grow our economy and our 
tax base across our Nation--on the Northern Border, on the 
Southern Border.
    It is not frivolous spending. It helps investment in our 
future economic growth and prosperity, which also would help to 
add money to the treasury and help ease our budget problems. 
That is why I fully support, as well, concepts like P3s, or 
public-private partnerships, as they are called, and other 
innovative ways to fund infrastructure improvements.
    We actually have made a proposal to my Governor in Michigan 
to consider the Blue Water Bridge Plaza as a P3, and I want 
to--I will be asking some questions about that. I hope that is 
something that CBP and GSA can discuss today. Again, I use that 
as an example. There are plenty of other ports of entry that 
may be also under consideration for a P3 or some creative 
financing.
    The goal of this hearing today is to really understand 
CBP's criteria. What is the criteria on their list? How do they 
prioritize land ports of entry for infrastructure improvements? 
And to determine how they decide to fund projects and, of 
course, again, explore the role that public-private 
partnerships and other unique approaches to financing might 
play in moving that process along.
    So I certainly look forward to hearing from the witnesses 
today on how we can work together, again, which POEs are on the 
list, what criteria is used to prioritize who gets funded and 
when. Because the ports of entry across the Nation are in dire 
need of modernization and expansion, and I believe we need to 
tap into the expertise of the private sector, as well, and to 
partner with them to come up with a better, more cost-effective 
approach to new ports of entry construction.
    At this time I would--Chairwoman recognizes the Ranking 
Member of the subcommittee, the gentlelady from Texas, Ms. 
Jackson Lee, for any statement that she may have.
    Ms. Jackson Lee. Thank you very much, Madam Chairwoman. Let 
me first of all thank you for this continuing oversight that 
has been so very effective dealing with concerns of border 
security, but also the importance of the need for the 
infrastructure, personnel, and other aspects that will improve 
our Nation's ports and inquire of the experts--local municipal 
leaders along with leaders in DHS and other experts--on this 
question. It is enormously important.
    So I thank you for holding today's hearing examining how 
the Federal Government prioritizes investments in port of entry 
infrastructure.
    As a Member from a border State, I understand how important 
appropriate infrastructure and staffing at our ports of entry 
are to not just border communities, but our Nation as a whole. 
On an average day about $2 billion in trade crosses our land 
borders, creating jobs and bolstering the economy in cities and 
towns across America.
    I have had the privilege of serving on this committee for a 
number of years, and so I have seen the bustling trade on the 
Canadian border; I have seen it occur on the California border; 
certainly the Texas border in cities like El Paso and Laredo. 
This is a vibrant part of our efforts here in North America. In 
fact, trade just with Mexico supports 6 million jobs in the 
United States--a lot of those jobs in Houston, Texas.
    Meanwhile, our ports of entry are aging and their 
infrastructure can no longer accommodate the volume of trucks, 
vehicles, and pedestrians that cross every day, resulting in 
increasing wait times. These decades-old facilities were not 
built to accommodate post-
9/11 security technology, either.
    CBP previously estimated it would need $6 billion over 10 
years to modernize existing ports of entry to meet its current 
security and facilitation missions. Congress failed to provide 
funding in fiscal years 2011, 2012, and 2013 for port of entry 
infrastructure, exacerbating the backlog of infrastructure 
projects.
    Meanwhile, staffing shortages continue to be a problem as 
CBP remains several thousand officers shy of what its staffing 
model indicated is necessary to properly staff our Nation's 
ports of entry. As a result, wait times at many ports of entry 
continue to grow, costing the U.S. economy and American 
consumers billions.
    I asked the mayor of El Paso, Texas, Oscar Leeser, to join 
us today to speak about what his community is doing in 
partnership with CBP to reduce wait times and make improvements 
at three ports of entry in his city. Let me thank the mayor for 
his presence here and for being a model for what we should be 
doing but what cities have been doing.
    We thank all of the witnesses for their presence.
    I would like to take note of your Member of Congress in 
particular, my colleague from Texas, Representative Beto 
O'Rourke, who has been a strong advocate on this committee on 
border issues. We are pleased to have him representing the 
community.
    As well, I will tell you, I am even pleased to have him 
mention El Paso more times than I mention Houston. So I am 
going to congratulate him for that and thank him for his great 
leadership and his commitment to properly sourcing and staffing 
our ports of entry.
    I hope to hear from the mayor about his thoughts on the 
ways we can work cooperatively to provide the infrastructure 
and staffing communities like his, as well as how that can 
translate across America. I also look forward to hearing from 
our Federal witnesses about how ports of entry infrastructure 
needs are prioritized and what we can do to maximize our 
limited border security dollars in this area.
    I thank the witnesses for joining us today.
    I would add, as the Chairwoman knows, we spent a lot of 
days down at the border just a few weeks ago--maybe 10 days 
ago--addressing questions of ports of entry that also included 
the question of the surge of unaccompanied children. I could 
not be in a hearing dealing with border security infrastructure 
without commenting on that surge and first of all saying to the 
administration that your response, and your steady response, 
which most people did not glean from the surge, but the 
administration had been dealing with this even before 2014 in 
October 2013. I think it is important that in the hearing that 
Chairman McCaul and I co-chaired, we both affirm the need for 
the introduction on the floor of the House and the passage out 
of the House of H.R. 1417, a bill that Chairwoman and I have 
worked extensively on.
    Lastly, let me say that this country is a country of laws 
and people. I think in this particular hearing it is important, 
as well, to emphasize that the laws we have to deal with 
unaccompanied children are laws that work--some of the laws 
generated from a lawsuit that the Government lost--and that we 
can do the good things of this committee, looking for the 
rebuild of our infrastructure, what many of you will be talking 
about, at the same time address the humanitarian crisis with 
the laws that we have, adding to that the reauthorization of 
the Customs and Border Patrol Agents and H.R. 1417.
    But no laws need to be changed to deny children due 
process, as has been suggested by the HUMANE Act. We can 
actually work with the Wilberforce bill, as we have done over 
the decades.
    So I thank the Chairwoman for this hearing.
    My last point, Madam Chairwoman, is I am in a mark-up in 
Judiciary that I have to be at, and so I may depart for a 
moment, hope to be able to return and hope that we will yield 
to the gentleman from El Paso if I have to leave at some point, 
if Ms. Sanchez is not here.
    Thank you so very much. Thank you, Madam Chairwoman. I 
yield back.
    [The statement of Ranking Member Jackson Lee follows:]
             Statement of Ranking Member Sheila Jackson Lee
                             July 16, 2014
    I thank Chairwoman Miller for holding today's hearing examining how 
the Federal Government prioritizes investments in port of entry 
infrastructure.
    As a Member from a border State, I understand how important 
appropriate infrastructure and staffing at our ports of entry are to 
not just border communities, but our Nation as a whole.
    On an average day, about $2 billion in trade crosses our land 
borders, creating jobs and bolstering the economy in cities and towns 
across America.
    In fact, trade just with Mexico supports 6 million jobs in the 
United States.
    Meanwhile, our ports of entry are aging and their infrastructure 
can no longer accommodate the volume of trucks, vehicles, and 
pedestrians that cross every day, resulting in increasing wait times.
    These decades-old facilities were not built to accommodate post-9/
11 security technology either.
    CBP previously estimated it would need $6 billion over 10 years to 
modernize existing ports of entry to meet its current security and 
facilitation missions.
    Congress failed to provide funding in fiscal years 2011, 2012, and 
2013 for port of entry infrastructure, exacerbating the backlog of 
infrastructure projects.
    Meanwhile, staffing shortages continue to be a problem, as CBP 
remains several thousand officers shy of what its staffing model 
indicated is necessary to properly staff our Nation's ports of entry.
    As a result, wait times at many ports of entry continue to grow, 
costing the U.S. economy--and American consumers--billions.
    I asked the mayor of El Paso, Texas, Oscar Leeser, to join us today 
to speak about what his community is doing, in partnership with CBP, to 
reduce wait times and make improvements at the three ports of entry in 
his city.
    His Member of Congress, my colleague from Texas, Rep. Beto 
O'Rourke, is a leader on this committee on border issues, and we are 
pleased to have a representative from his community share first-hand 
experience about what we must do to properly resource and staff ports 
of entry.
    I hope to hear from Mayor Leeser about his thoughts on ways we can 
work cooperatively to provide the infrastructure and staffing 
communities like his need.
    I also look forward to hearing from our Federal witnesses about how 
port of entry infrastructure needs are prioritized and what we can do 
to maximize our limited border security dollars in this area.

    Mrs. Miller. I thank the gentlelady. I think you and Mr. 
Marino are both in that mark-up, I believe; and I am in another 
mark-up, as well, so we will try to move along here today.
    But before I formally introduce our witnesses, I certainly 
wanted to recognize and welcome our newest Member of our Border 
and Maritime Security Subcommittee here, Mr. Clawson, from 
Florida.
    I think you will find that this is a very, a very busy and 
active committee. The work is very interesting and certainly 
impacts, I know, your district and all of our districts and our 
Nation. So we certainly welcome you and look forward to your 
participation and involvement with our committee.
    Ms. Jackson Lee. We welcome you. I will just do a little 
applause. Thank you.
    [Laughter.]
    Mrs. Miller. Other Members of the committee are reminded 
that opening statements might--may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
        Prepared Statement of Ranking Member Bennie G. Thompson
                             July 16, 2014
    On this committee, we are fortunate to have Members who represent 
districts on our Northern and Southern Borders and know first-hand the 
importance of having sufficient infrastructure and staffing at our 
ports of entry.
    Today, there are about 21,775 Customs and Border Protection (CBP) 
Officers staffing 329 air, land, and sea ports, including 167 at the 
land borders. On an average day, about $2 billion in trade crosses the 
land borders, along with 350,000 passenger vehicles, 135,000 
pedestrians, and 30,000 trucks. Of all goods moved in U.S. 
international trade, about a third is with Canada and Mexico, and 
almost 90 percent of that moves by land.
    Unfortunately, port of entry infrastructure and staffing has not 
kept pace with the demands of this robust travel and commerce. While 
the 2009 stimulus provided sufficient funding to modernize CBP-owned 
ports of entry, General Services Administration (GSA) ports remain in 
dire need of modernization and expansion.
    Indeed, unmet needs at just our existing land ports total an 
estimated $6 billion. In recent years, Congress has failed to provide 
adequate funding to make progress toward addressing these needs. 
Indeed, in 3 recent years, until last year, Congress did not provide 
any funding for land ports at all.
    As a result, some ports suffer from insufficient or outdated 
infrastructure that makes it difficult to deploy necessary, modern 
security technology or to deploy sufficient personnel to move people 
and goods in a timely manner.
    Similarly, while Congress recently appropriated funding to hire an 
additional 2,000 CBP Officers, the agency remains several thousand 
officers short of what it needs to properly staff ports of entry and 
fulfill its security and trade facilitation missions. This staffing 
shortage often results in increased wait times and long lines at our 
land borders for the commuters, visitors, and businesses that rely on 
cross-border travel.
    These wait times have a detrimental effect on the American economy. 
Delays at U.S.-Mexico border crossings alone cost the U.S. economy an 
estimated $7.8 billion in 2011. Ultimately, these costs are borne by 
American consumers. Some communities, like El Paso, which owns three 
ports of entry, have decided to fill this gap by participating in 
public-private partnership initiatives authorized by Congress.
    Under these arrangements, local entities pick up the tab for CBP 
Officer staffing to close the gap between the staffing the Government 
provides and what is necessary to keep wait times reasonable.
    While this may be a good stop-gap solution, the Federal Government 
has a responsibility to provide sufficient funding to ensure CBP has 
the staffing to carry out its border security and trade facilitation 
missions.
    Today, I look forward to hearing from our witnesses about how port 
of entry infrastructure needs are identified, prioritized, and 
ultimately funded. Along with support from Congress, ensuring this 
process works efficiently is essential to ensuring our ports of entry 
are ready to meet current demands at our borders.

    Mrs. Miller. Again, we have our distinguished witnesses 
today.
    Mr. John Wagner, who is a frequent visitor here to our 
committee, the assistant commissioner for U.S. Customs and 
Border Protection Office of Field Operations. He formerly 
served as executive director of admissibility and passenger 
programs with responsibility for all traveler admissibility-
related policies and programs, including the Trusted Traveler 
Program and the Electronic System for Travel Authorization, and 
the Immigration Advisory Program in the Fraudulent Document 
Analysis Unit.
    He is accompanied this morning by Mr. Schied, who is the 
assistant commissioner for CBP's Office of Administration. Mr. 
Schied will not be offering testimony but will be available to 
answer any of our questions, as I understand it.
    So we welcome you, as well.
    Mr. Michael Gelber is the deputy commissioner for Public 
Building Service at the U.S. General Services Administration. 
The Public Building Service is one of the largest public real 
estate organizations in the world, operating more than 9,000 
owned and leased properties across the United States. He began 
his career there in 1988 and has held positions--several 
leadership positions, actually, including service in the 
Northwest and the Great Lakes regions.
    Mr. Oscar Leeser is the mayor of El Paso, and is a position 
that he has held since June 2014. Before becoming mayor, Mr. 
Leeser held several leadership positions in the automotive 
business community in El Paso, and he remains active with the 
El Paso Children's Hospital foundations.
    The witnesses' full written statements will appear in the 
record.
    The Chairwoman now recognizes Mr. Wagner for his testimony.

  STATEMENT OF JOHN WAGNER, ASSISTANT COMMISSIONER, OFFICE OF 
     FIELD OPERATIONS, CUSTOMS AND BORDER PROTECTION, U.S. 
   DEPARTMENT OF HOMELAND SECURITY, ACCOMPANIED BY EUGENE H. 
   SCHIED, ASSISTANT COMMISSIONER, OFFICE OF ADMINISTRATION, 
  CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Wagner. Thank you. Good morning.
    Chairwoman Miller, Ranking Member Jackson Lee, and Members 
of the subcommittee, thank you for the opportunity to appear 
today to discuss U.S. Customs and Border Protection's efforts 
to modernize land port of entry facilities and operations in 
support of our mission to secure and facilitate travel and 
trade to the United States.
    Later this month we celebrate the 225th anniversary of the 
establishment of the Customs Service, its importance to the 
history of our Nation, and its continued importance today as 
part of CBP's complex mission.
    The Office of Field Operations is CBP's front-line entity 
responsible for securing and facilitating international trade 
and travel at our Nation's 329 ports of entry. During 2013 we 
processed more than 25 million cargo containers and more than 
362 million passengers in the land, sea, and air environments, 
and trade and travel volumes continue to rise. More than half 
of the Nation's official ports of entry are located along the 
U.S. land borders with Mexico and Canada, and most were built 
to support the distinct and independent operations of pre-DHS 
components, such as the Customs Service; the Animal and Plant 
Health Inspection Service; and the Immigration and 
Naturalization Service.
    Today CBP's consolidated operations entail state-of-the-art 
technology and professional law enforcement personnel to 
process persons and cargo and maintain an efficient stream of 
cross-border travel and trade. The success of these operations 
depends heavily on the condition and operational utility of our 
inspection facilities and the availability of CBP personnel.
    Today I would like to discuss CBP's efforts to satisfy 
infrastructure and personnel demands and meet the challenge of 
growing volumes of trade and travel. Several land ports of 
entry were built more than 70 years ago. Even those constructed 
as recently as 15 years ago require renovation or replacement 
to meet present-day security standards, enforcement and 
facilitation technologies, and growing demands for additional 
processing capacity.
    CBP and the General Services Administration use a multi-
step process to plan for all land port of entry modernization 
investments. In close coordination with key Federal, State, and 
local stakeholders, we conduct a strategic resource assessment 
to identify individual needs at each facility and a sensitivity 
analysis to ascertain the relative urgency of the facility 
needs Nation-wide. We evaluate the impact of environmental, 
cultural, historic preservation, and land acquisition 
requirements and consider the likelihood of obtaining funds.
    After a thorough assessment, we arrive at a prioritized 
capital investment plan that is updated annually to ensure that 
available Federal funding is directed to the areas of the 
greatest need.
    Modern inspection facilities accommodate cross-border 
traffic more efficiently and integrate advanced technology 
equipment more effectively, enhancing CBP's security and 
facilitation operations. Expediting tourism and commerce is 
vital to our Nation's economic prosperity, and detecting 
potentially dangerous people and cargo is essential to National 
security.
    CBP supports the modernization of inspection facilities at 
our land ports. We actively participate in border master 
planning and work with State and local stakeholders to 
determine where and what kind of inspection services and 
facilities are needed.
    CBP is committed to supporting our stakeholders' needs. 
However, it is not efficient to have every port of entry 
facility provide the same services and equipment. CBP looks 
closely at each port's activity and we work with State and 
local government to appropriately match services and equipment 
to port activities. We do not want facilities, lanes, 
equipment, or personnel to sit idle.
    CBP's coordination with regional transportation groups is 
vital to the development of alternative innovative ways to 
maximize resources and efficiency, especially in constrained 
budget environments. Segregating or rerouting certain traffic 
to alternative ports optimizes resources and facilities and is 
an effective way to meet the needs and volume of specific 
commercial, vehicle, or pedestrian traffic.
    Stacking booths increases traffic throughput, and high-low 
booths can accommodate the processing of either commercial 
trucks or personal vehicles. These methods provide CBP with 
valuable flexibility to quickly adapt to changing port 
conditions or cross-border volume and reduce the overall 
footprint of facilities.
    Due to the budget environment over the past several years, 
funding for facilities and personnel--both essential 
operational elements of ports of entry--has been limited. To 
keep pace with the growth in international trade and travel, we 
developed a three-part resource optimization strategy that 
identifies staffing requirements, ensures the efficient use of 
resources by optimizing business processes, and explores 
funding strategies to support these increases.
    Thanks to the support of Congress, CBP was recently granted 
additional authorities to enter into public-private 
partnerships and pursue alternative methods of funding CBP 
services and financing ports of entry infrastructure projects. 
Under Section 560 of the Consolidated and Further Continuing 
Appropriations Act of 2013, CBP received authority allowing the 
commissioner to enter into no more than five reimbursable 
service agreements to provide new or enhanced customs and 
immigration-related inspection services.
    We entered into these agreements with the participating 
locations last December. In the first 6 months of the program 
CBP was able to provide an additional 7,000 CBP Officer 
assignments and open primary lanes and booths for an additional 
18,000 hours at the request of our partners, increasing border 
processing throughput at the participating ports of entry.
    In 2014 CBP received additional authority under Section 559 
of the Consolidated Appropriations Act of 2014, which 
authorizes us to enter into partnerships with private-sector 
and Government entities at ports of entry to reimburse certain 
costs of services and accept donations of real and personal 
property.
    Chairwoman Miller, Ranking Member Jackson Lee, and Members 
of the subcommittee, thank you for the opportunity to testify 
today, and I am happy to answer your questions.
    [The prepared statement of Mr. Wagner follows:]
                   Prepared Statement of John Wagner
                             July 16, 2014
    Chairwoman Miller, Ranking Member Jackson Lee, and distinguished 
Members of the subcommittee, thank you for the opportunity to discuss 
U.S. Customs and Border Protection's (CBP) efforts to sustain and 
modernize our Nation's land ports of entry (LPOEs) to secure and 
facilitate growing volumes of travel and trade.
    CBP is responsible for securing the Nation's borders at and between 
ports of entry (POEs), while facilitating the efficient movement of 
legitimate travel and trade. Later this month, we celebrate the 225th 
anniversary of the establishment of the U.S. Customs Service and the 
important role it played in the history of our Nation. Since its merger 
into CBP in 2003, Customs has remained a part of CBP's heritage and a 
significant presence in the continuation of our mission. Today, CBP 
serves as the front line in defending the American public against 
terrorists and instruments of terror and protects our economic security 
while facilitating lawful international travel and trade. CBP takes a 
comprehensive approach to border management and control, combining 
National security, customs, immigration, and agricultural protection 
into a coordinated whole.
    The Office of Field Operations (OFO) is the law enforcement entity 
within CBP responsible for carrying out CBP's complex and demanding 
mission at all POEs. OFO manages the lawful access to our Nation and 
economy by securing and facilitating international trade and travel. 
Staffing challenges at the POEs continue to increase as CBP takes on 
additional mission requirements and as trade and travel volumes 
continue to grow. To address this on-going challenge, we have developed 
a three-part Resource Optimization Strategy that: (1) Identifies 
staffing requirements using a Workload Staffing Model; (2) ensures the 
efficient use of resources by optimizing current business processes; 
and (3) explores funding strategies to support staffing increases.
    The Workload Staffing Model employs a rigorous, data-driven 
methodology to identify staffing requirements by considering all the 
activities performed by CBP Officers at our POEs, the volume of those 
activities, and the levels of effort required to carry them out. The 
most recent results of this model show a need for 4,373 additional CBP 
Officers through fiscal year 2015.
    Thanks to the support of Congress, the Consolidated Appropriations 
Act, 2014, Pub. L. 113-76, included funding for 2,000 new CBP Officers. 
These additional officers will be allocated utilizing the Workload 
Staffing Model and directed to those ports with the greatest need. 
While the 2,000 additional officers will bring significant support to 
our mission, it is important to note that this is a good down-payment, 
but unfortunately, no POE will be ``made whole'' by this allocation of 
officers. The President's fiscal year 2015 budget request calls for 
user fee increases that would fund an additional 2,000 CBP Officers. 
Additionally, CBP will continue to pursue transformation efforts, new 
reimbursement authorities, and partnerships with our stakeholders.
    There are more people and goods coming through our ports of entry 
than ever before. Since 2009, we have seen growth in both trade and 
travel and we expect these trends to continue. Every year, OFO 
facilitates the travel of tens of millions of international tourists 
visiting our Nation. In fiscal year 2013, CBP inspected more than 360 
million travelers at our air, land, and sea POEs. The facilitation and 
security of lawful travel and trade is a priority for CBP and we are 
taking steps, working closely with our stakeholders, Congress, and the 
U.S. General Services Administration (GSA), to improve our POEs and our 
security and facilitation efforts. At CBP, we view effective and 
efficient security as a contributor to facilitation, and not a barrier. 
Security measures are vital to protecting travel and trade from the 
damaging effects of terrorist or other security incidents. Our goals of 
National security and economic prosperity are fundamentally 
intertwined.
    CBP's role in securing and facilitating international trade and 
travel is critical to the growth of our economy and the creation of 
more jobs. The extent to which wait times affect the local and National 
economy was most recently studied by the National Center for Risk and 
Economic Analysis of Terrorism Events (CREATE), a Department of 
Homeland Security (DHS) Center of Excellence. CREATE issued ``The 
Impact on the U.S. Economy of Changes in Wait Times at Ports of 
Entry''\1\ in March 2013. Their analysis of 17 major passenger land 
crossing POEs, 12 major freight crossing POEs, and four major passenger 
airport POEs, found that an increase or decrease in staffing at the 
POEs has an impact on wait times and, therefore, on the U.S. economy. 
More specifically, adding a single CBP Officer at each of the 33 
studied border crossings equates to annual benefits of a $2 million 
increase in Gross Domestic Product, $640,000 saved in opportunity 
costs, and 33 jobs added to the economy per officer added.
---------------------------------------------------------------------------
    \1\ ``The Impact on the U.S. Economy of Changes in Wait Times at 
Ports of Entry,'' National Center for Risk and Economic Analysis of 
Terrorism Events (CREATE), University of Southern California, released 
April 4, 2013 (dated March 31, 2013).
---------------------------------------------------------------------------
    More than half of the Nation's 329 official POEs are located along 
the U.S. land borders with Mexico and Canada. Most of the inspection 
facilities at our 167 LPOEs \2\ were not designed to meet the post-9/11 
security and operational missions of CBP. Rather, they were built to 
support the distinct operations of pre-DHS components, such as the U.S. 
Customs Service, the Animal and Plant Health Inspection Service of the 
U.S. Department of Agriculture, and the United States Immigration and 
Naturalization Service.
---------------------------------------------------------------------------
    \2\ LPOEs include all at-grade and bridge land port inspection 
facilities. These land port inspection facilities fall within the POE 
definition under 8 CFR  100.4(a).
---------------------------------------------------------------------------
    Today, CBP's operations entail sophisticated targeting and 
communication systems, state-of-the-art detection technology, and a 
cadre of professional law enforcement personnel to identify, screen, 
and inspect high-risk persons and cargo and maintain an efficient 
stream of cross-border travel and trade. However, the success of our 
operational strategy depends heavily on the condition and operational 
utility of the inspection facilities and the availability of CBP 
personnel.
    Several LPOEs were built more than 70 years ago and require 
renovation or replacement to meet present-day operational and security 
standards. Many constructed as recently as 15 to 20 years ago also 
require significant modernization to address growing demands for 
additional processing capacity, new security requirements and 
enforcement technologies, and the need to maximize the efficiency of 
existing personnel and resources.
    To construct and sustain CBP's LPOE inspection facilities, CBP 
works in close partnership with the GSA Public Buildings Service, which 
manages many of the LPOE facilities.
                  lpoe modernization planning process
    CBP employs a multi-step process to plan for all LPOE modernization 
investments, whether planned for a CBP-owned or a GSA facility. This 
process includes gathering data using the Strategic Resource Assessment 
(SRA) process, evaluating identified needs at each POE location, 
conducting a sensitivity analysis on the initial ranking of needs, and 
assessing project feasibility and risk. The culmination of this process 
is a final prioritization of proposed modernization projects and the 
development of a capital investment plan in coordination with GSA. This 
capital investment plan divides the project list into feasible annual 
work plans that reflect the analytical conclusions and incorporate 
project phasing and funding requirements. CBP and GSA update the 
capital investment plan annually, taking into account any changes in 
DHS's mission and strategy, changing conditions at the LPOEs, and any 
other factors discovered in the course of projects already under way.
    CBP and GSA work in close partnership with key Federal, State, and 
local stakeholders to construct and sustain CBP's LPOE inspection 
facilities. As a matter of coordination, CBP consults affected 
stakeholder agencies at the onset of project planning and continues 
this relationship throughout project development and execution.
    As the facility operator at all LPOEs, including those owned or 
leased by GSA, CBP works in close coordination with GSA to identify 
long-term future investments for funding through the GSA Federal 
Buildings Fund (FBF). Through this collaborative project team approach, 
both agencies work to ensure that the available Federal funding is 
directed to the areas of greatest need within the GSA portfolio in 
accordance with the capital investment plan.
    Although stimulus funding appropriated under the American Recovery 
and Reinvestment Act (ARRA), Pub. L. 111-5, enabled CBP and GSA to fund 
many large-scale LPOE capital construction and facility improvement 
projects, significant additional investment is necessary to modernize 
the entire LPOE portfolio.
    Infrastructure enhancements are critical to the improvement of 
trade and travel facilitation; these changes are necessary to support 
current traffic volumes and modern technology. Due to the budget 
environment over the past 4 years, there have been very limited 
investments towards modernizing POEs. However, thanks to the support of 
Congress, CBP received authority to accept reimbursement for activities 
and donations.
      partnerships with the private sector and government entities
    CBP is frequently asked by our stakeholders to provide new or 
additional services at POEs across the country. We recognize the 
potential economic impact for new or expanded service, and we very much 
want to support these endeavors. However, due to budget restraints and 
limited resources, we are not always able to accommodate these 
requests.
    A key aspect of CBP's three-pronged Resource Optimization Strategy 
is the exploration of partnering with the private sector through such 
activities as reimbursement and potential acceptance of donations. As 
part of CBP's Strategy, CBP received authority to enter into agreements 
under Section 560 of Division D of the Consolidated and Further 
Continuing Appropriations Act, 2013, Pub. L. 113-6 (Section 560); and 
Section 559 of Division F of the Consolidated Appropriations Act, 2014, 
Pub. L. 113-76 (Section 559).
    Under Section 560, CBP received authority allowing the commissioner 
of CBP to enter into no more than five agreements under certain 
conditions to provide new or enhanced services on a reimbursable basis 
in any of CBP's non-foreign operational environments. CBP implemented 
this authority, entering into agreement with the participating 
locations \3\ before the late December 2013 statutory deadline. In the 
first 6 months of the program, CBP was able to provide an additional 
7,000 CBP Officer assignments and opened primary lanes and booths for 
an additional 18,000 hours at the request of our partners, increasing 
border processing throughput at U.S. air and land POEs under this 
program. In January 2014, CBP received additional authority under 
Section 559, which authorizes CBP to enter into partnerships with 
private sector and Government entities at ports of entry to reimburse 
the costs of certain CBP services and to accept donations of real and 
personal property (including monetary donations) and non-personal 
services.
---------------------------------------------------------------------------
    \3\ The Section 560 participating partners are the Dallas/Fort 
Worth International Airport Board, the City of El Paso, Miami-Dade 
County, the City of Houston/Houston Airport System, and the South Texas 
Assets Consortium.
---------------------------------------------------------------------------
    Both provisions respond to CBP's efforts to find innovative 
approaches to meet the growing demand for new and expanded facilities 
and, in particular, the on-going modernization needs of CBP's LPOE 
portfolio.
Reimbursable Services Agreements
    Section 559(e) expands CBP's authority, under a 5-year pilot 
program, to enter into reimbursable agreements similar to the fiscal 
year 2013 ``Section 560'' authority. This new authority allows CBP to 
support requests for expanded services including customs, agricultural 
processing, border security services, and immigration inspection-
related services at POEs; salaries for additional staff; and CBP's 
payment of overtime expenses at airports. While there is no limit on 
the number of agreements CBP can enter into at CBP-serviced seaports or 
land border ports, only five agreements per year are currently allowed 
at new or existing CBP-serviced airports for each of the 5 years the 
pilot program is authorized. Additionally, the law stipulates that 
agreements may not unduly and permanently impact existing services 
funded by other sources.
    CBP evaluates each Reimbursable Services Agreement (RSA) proposal 
based on a single set of objective and carefully-vetted criteria to 
ensure that final recommendations will be most beneficial to CBP, to 
the requesting parties, and to the surrounding communities. The main 
factors of consideration include the impact on CBP operations; funding 
reliability; community and industry concerns; health and safety issues; 
local/regional economic benefits; and feasibility of program use.
    RSAs enable stakeholders to identify enhanced services needed to 
facilitate growing volumes of trade and travel at specific POEs, and 
enables CBP to receive reimbursement so that we can fulfill those 
requirements. The authority provides stakeholders and CBP the 
flexibility to meet situational or future demand for extended or 
enhanced services to secure and facilitate the flow of trade or travel 
at participating ports. At LPOEs this authority enables CBP to open and 
staff additional lanes or provide services for extended hours to reduce 
wait times and expedite commercial and personal traffic. At airports, 
RSAs enable CBP to staff additional booths and accommodate additional 
flights, or flight arrivals outside of standard operational hours, on 
an overtime basis. Accommodating additional flights means increased 
travel and tourism revenue for an airport or a region.
Donation Acceptance Authority
    Section 559(f), the Donation Acceptance Authority, authorizes CBP 
and GSA to accept donations of real or personal property (including 
monetary donations) or non-personal services from private-sector or 
Government entities. Any donation accepted may be used only for 
necessary activities related to the construction, alteration, 
operation, or maintenance of a new or existing POE, including but not 
limited to: Land acquisition, design, equipment, and technology.
    The Donation Acceptance Authority legislation requires that CBP and 
GSA: (1) Establish criteria that identify and document their respective 
roles and responsibilities; (2) identify, allocate, and manage 
potential risk; (3) define clear, measurable objectives; and (4) 
publish criteria for evaluating partnership projects.
    CBP has been coordinating closely with GSA to meet the 
Congressional deadline for making donation proposal evaluation criteria 
available to the public.
    Both the Reimbursable Services Authority and the Donation 
Acceptance Authority enable CBP to build effective partnerships with 
stakeholders to address the port requirements necessary to support 
growing volumes of travel and trade.
                               conclusion
    The effective security of our Nation and facilitation of 
international trade and travel rely heavily on the health and 
operational utility of our inspection facilities. The CBP LPOE 
modernization strategy, in conjunction with GSA program and project 
management resources, ensures a reliable method for identifying future 
infrastructure needs and prioritizing projects at LPOEs. Innovative 
funding sources, such as the Reimbursable Services Authority and the 
Donation Acceptance Authority, are critical components of CBP's 
Resource Optimization Strategy. CBP views these authorities as an 
opportunity to proactively work with stakeholders and communities to 
identify business solutions for a variety of border management needs, 
and generate mutual benefits of the secure and efficient flow of travel 
and commerce.
    The combination of highly-trained personnel, technology, and 
modernized facilities form the essential foundation for CBP's 
operational strategy, which every POE, large or small, must be able to 
support. CBP continues to evaluate and optimize its primary business 
processes and will further develop transformation initiatives to 
accomplish its mission more effectively and efficiently, through 
practices such as employing technology to streamline processes, 
expanding Trusted Traveler/Trader Program enrollment, increasing risk 
segmentation through enhanced targeting/pre-departure initiatives, and 
leveraging operational best practices.
    Legitimate travel and trade play a critical role in the Nation's 
economic growth, and CBP recognizes its role in sustaining such growth. 
The number of international visitors and overall cross-border traffic 
is increasing, and CBP is aggressively working on modernizing our 
infrastructure and transforming the way we do business to more 
effectively and efficiently secure our Nation and improve our economy.
    Chairwoman Miller, Ranking Member Jackson Lee, and Members of the 
subcommittee, thank you for the opportunity to testify today. I am 
happy to answer any questions you may have.

    Mrs. Miller. Thank you very much, Mr. Wagner.
    Before we proceed with our witnesses' testimony, the 
Chairwoman would recognize Mr. Marino to ask his questions for 
the record, since apparently he has to leave. We appreciate his 
participation this morning.
    Mr. Marino. Thank you very much, Chairwoman.
    Gentleman, I don't expect an answer from you right now, but 
if each of you would send me a--send the committee a written 
statement, you will be given the specific verbiage that I am 
going to read, so you don't have to worry about writing it 
down, okay? I thank you for being here.
    Mr. Gelber, it is good to see you again.
    It is a three-point question, so I will just read it for 
the record and then I will be on my way. To each of you, what 
is the purpose--excuse me--what is the process and how long 
does it take for GSA to begin work on a new port of entry, 
compared to the time frame to enhance, expand, or improve an 
existing established border operation once funding has been 
authorized?
    Question No. 2: When existing ports of entry have tangible 
needs and even phased renovation or enhancement under way, why 
wouldn't those be completed before initiating new ports of 
entry, especially within the same traffic corridor?
    Question No. 3: Does GSA/CBP have any obligation to 
complete projects that have been authorized and initiated at 
existing ports of entry before contemplating new ports of 
entry?
    Madam Chairwoman, I thank you very much.
    Thank you, gentlemen. Please get me that in writing.
    Mrs. Miller. I thank the gentleman.
    Chairwoman now recognizes Mr. Gelber for his testimony.

   STATEMENT OF MICHAEL GELBER, DEPUTY COMMISSIONER, PUBLIC 
    BUILDINGS SERVICE, U.S. GENERAL SERVICES ADMINISTRATION

    Mr. Gelber. Good morning, Madam Chairwoman, Ranking Member 
Jackson Lee, and Members of the committee. My name is Michael 
Gelber and I am the deputy commissioner of the GSA's Public 
Building Service.
    GSA's mission is to deliver the best value in real estate, 
acquisition, and technology services to Government and the 
American people. As part of this mission, GSA works with a 
range of Federal inspection agencies along our land borders. 
CBP is our primary partner in addressing border infrastructure, 
and GSA maintains a close partnership with CBP to meet its 
essential mission needs.
    I look forward to outlining the importance of land ports of 
entry, our partnership with CBP, how the Government jointly 
prioritizes and executes port projects, and the challenges 
facing these investments.
    GSA works closely with CBP to design, construct, maintain, 
and operate land ports of entry along our Northern and Southern 
Borders. These ports are integral to the Nation's trade and 
security.
    GSA owns 102 land ports of entry along the Northern and 
Southern Borders and leases an additional 22 ports. CBP owns 
and operates 40 primarily smaller ports, mostly in rural, 
remote areas.
    Given the crucial importance of these ports, GSA, in 
collaboration with CBP, has prioritized investment to modernize 
and upgrade these facilities. To ensure these investments 
address CBP's most pressing needs, GSA relies on the priorities 
established in CBP's 5-year plan for portfolio upgrades. This 
list of priorities can be--include expansion and modernization 
of existing land ports along with new port construction.
    As CBP outlined, its process includes gathering data 
through a strategic resource assessment, ranking identified 
needs at each port, conducting a sensitivity analysis on the 
initial listing of these needs, assessing project feasibility 
and risk, and establishing an executable capital investment 
plan. In the current 5-year land port of entry construction 
plan, CBP identified six construction projects at land ports of 
entry, totaling more than $830 million in facility construction 
along the Northern and Southern Borders.
    During the past 15 years, GSA has invested more than $1.5 
billion to deliver more than 20 new land ports along our 
borders. In the past 4 fiscal years, the administration has 
requested more than $740 million in support of modernization of 
land ports to address CBP's most pressing needs.
    Of these identified needs, Congress has provided 
approximately $295 million of these requests, all of which came 
in fiscal year 2014. The lack of full funding stalled critical 
modernizations and delayed land port upgrades that would secure 
our borders and improve the efficient flow of commerce with our 
neighbors in Canada and Mexico.
    Given the consistent cuts to the port program, GSA has seen 
intense interest in finding alternatives to Federal 
appropriations to deliver high-priority port projects. When 
assessing any option, GSA and CBP must take a comprehensive 
look at the full life-cycle cost of a port.
    These costs include the land where construction takes 
place, the infrastructure that supports the mission, the funds 
to staff the facility, and the sophisticated technology and 
equipment the Federal Government uses to ensure the Nation's 
security. If an alternative resource exists for one or more of 
these items, GSA and CBP likely still must find funding to 
address the full range of costs.
    GSA has had some success in using alterative delivery 
methods to support land port projects in the past. For 
instance, GSA has a long-standing authority to accept 
unconditional gifts of real and personal property. GSA has used 
this authority multiple times when State or local governments, 
and in a few cases private-sector entities, have elected to 
donate property to GSA in order to realize economic benefits 
that comes with a new or expanded land port of entry.
    For instance, at the San Luis II port in Arizona, GSA 
received a donation of land and utilities in support of the 
site to help make progress on a modernization project. In 
Donna, Texas, the local municipality donated money for design, 
land for the site of the port, and 180,000 cubic yards of fill 
dirt for construction. In Columbus, New Mexico, a private 
landowner donated approximately 10 acres of land to GSA near 
the port site for construction and a bypass road for commercial 
trucks.
    Additionally, Congress has supported these efforts by 
providing for additional donation authorities, such as Section 
559 of the fiscal year 2014 Consolidated Appropriations Act. 
These authorities present valuable opportunities to support 
port development. However, these resources have generally been 
utilized to make modest improvements to existing ports or 
defray the cost of a major modernization, not to deliver a 
full-scale upgrade of the type the administration has requested 
consistently in the President's budget.
    GSA looks forward to working with Congress to further 
explore these and other flexible authorities and to continue to 
highlight the importance of these investments.
    Thank you for the opportunity to speak with you today about 
our on-going partnership with the Federal inspection agencies, 
particularly CBP, as we address the Nation's security and 
economic needs along our borders. I welcome any questions you 
may have.
    [The prepared statement of Mr. Gelber follows:]
                  Prepared Statement of Michael Gelber
                             July 16, 2014
                              introduction
    Good morning Chairwoman Miller, Ranking Member Jackson Lee, and 
Members of the committee. My name is Michael Gelber, and I am the 
deputy commissioner of GSA's Public Buildings Service.
    GSA's mission is to deliver the best value in real estate, 
acquisition, and technology services to Government and the American 
people. As part of this mission, GSA maintains a close partnership with 
the Department of Homeland Security U.S. Customs & Border Protection 
(CBP) to meet that agency's space needs along our Nation's borders. CBP 
is our primary partner of the Federal inspection agencies stationed 
along our land borders.
    I look forward to outlining the importance of Land Ports of Entry, 
our partnership with CBP, how the Federal Government jointly 
prioritizes and executes port projects, and the challenges facing these 
investments.
                     the criticality of land ports
    GSA works closely with CBP to design, construct, maintain, and 
operate land ports of entry along more than 1,900 miles of border 
between the southern United States and Mexico and more than 5,500 miles 
of border between the northern United States and Canada. These ports 
are integral to the Nation's trade and security.
    On a daily basis, about $2 billion in goods, 350,000 vehicles, 
135,000 pedestrians, and 30,000 trucks cross the border at one of these 
167 ports. Since 1990, the combined value of freight shipments between 
the United States and Canada and the United States and Mexico has 
increased 170 percent, growing an average of 8 percent annually. 
Additionally, approximately 23 million U.S. citizens cross the land 
borders into Mexico and Canada a total of nearly 130 million times each 
year. These statistics highlight the vital role of safe, secure, and 
modern land ports along our borders.
    GSA owns 102 land ports of entry along the Northern and Southern 
Borders, leases or partially owns an additional 22. GSA's land port of 
entry inventory amounts to more than 5.5 million square feet of space. 
Additionally, CBP owns and operates 40 primarily smaller locations, 
mostly in remote, rural areas. The U.S. Department of Agriculture and 
U.S. Forest Service mutually own one land port of entry, and the 
National Park Service owns two ports.
      gsa's on-going partnership with cbp in support of land port 
                             modernization
    Given the crucial importance of these ports, GSA, in collaboration 
with CBP, has prioritized investment to modernize and upgrade these 
ports.
    To ensure these investments address CBP's highest-priority needs, 
GSA relies on the priorities established in CBP's 5-year plan for 
portfolio upgrades. CBP employs a multi-step process to develop its 5-
year plan. This list of priorities can include expansion and 
modernization of existing land ports along with new port construction.
    As CBP has outlined, its process includes gathering data through 
Strategic Resource Assessment, scoring identified needs at each port, 
conducting a sensitivity analysis on the initial ranking of needs, 
assessing project feasibility and risk, and establishing an executable 
capital investment plan.
    In the current 5-Year LPOE Construction Plan, CBP has identified 
six construction projects at land ports of entry totaling more than 
$830 million in facility construction along the Northern and Southern 
Borders.
    During the past 15 years, GSA has invested more than $1.5 billion 
to deliver more than 20 new land ports along our Northern and Southern 
Borders. In the past 4 fiscal years, the administration has requested 
more than $740 million in support of modernization of land ports to 
address CBP's most pressing needs. Unfortunately, Congress has provided 
approximately $295 million of these requests, all of which came in 
fiscal year 2014. This has stalled critical modernizations and delayed 
land port upgrades that would secure our borders and improve the 
efficient flow of commerce with our partners in Canada and Mexico.
    When a critical modernization project receives needed funding and, 
if required, the State Department issues a Presidential Permit, GSA and 
CBP work in close partnership with key Federal, State, and local 
stakeholders to construct and operate GSA-owned land port inspection 
facilities.
    GSA and CBP consult with stakeholder agencies at the onset of 
project planning and continue this relationship throughout project 
development and execution. If a project involves a new border crossing 
and or a substantial modification of an existing crossing, GSA works 
closely with the State Department, which must determine whether the 
project is in the National interest justifying issuance of a 
Presidential Permit. GSA also works closely with the U.S. Department of 
Transportation's Federal Highway Administration (FHWA) and the 
transportation departments from the 15 Border States when planning 
border infrastructure projects. GSA and CBP are partners in the Border 
Master Planning process on the U.S.-Mexico border. In addition to 
coordination with State and local agencies, the border master planning 
process also includes Mexican (federal, state, and local) governments 
as well as other Federal agencies including State Department, DOT 
(FHWA, Federal Motor Carrier Safety Administration, etc.) and sometimes 
private partners as well (railroads for example). The connectivity of 
highways with the land ports of entry is critical to the safe and 
efficient flow of traffic and trade across our borders. In addition to 
working closely with domestic stakeholders, GSA also works closely with 
the Department of State to coordinate with Federal and local 
governments in Mexico and Canada.
         alternative resources in support of land port projects
    Especially given the consistent cuts to the port program that I 
have previously mentioned, we have seen intense interest in finding 
alternatives to Federal appropriations to deliver high-priority port 
projects. Importantly, when assessing any options, GSA and CBP must 
look comprehensively at the full life-cycle cost of a port. This 
includes the land where construction takes place, the infrastructure 
that supports the mission, the funds to staff the facility, and the 
sophisticated technology and equipment CBP uses to ensure the Nation's 
security. If an alternative resource exists for one or more of these 
items, GSA and CBP likely still must find funding to address the full 
range of costs.
    GSA has had some success in using alternative delivery methods to 
support land port projects in the past. For instance, GSA has long-
standing authority to accept unconditional gifts of real and personal 
property from other public or private entities. GSA has used this 
authority multiple times when State or local governments, and in a few 
cases private-sector entities, have elected to donate land or other 
real property to GSA in order to realize the economic benefit that 
comes with a new or expanded land port of entry.
    For instance, at the San Luis II port in Arizona, GSA received a 
donation of land and utilities in support of the site to help make 
progress on the modernization. In Donna, Texas, the city donated money 
for design, land for the site of the port, and 180,000 cubic yards of 
fill dirt for construction. In Columbus, New Mexico, a private 
landowner donated approximately 10.2 acres of land to GSA near the port 
site for construction and a bypass road for commercial trucks.
    Additionally, Congress has sought to support these efforts by 
providing for additional donation and reimbursable service authorities. 
In fiscal year 2013, CBP received limited authority to enter into 
reimbursable service agreements with private-sector entities for the 
provision of certain inspectional services.\1\ Congress expanded CBP's 
ability to execute these reimbursable service agreements in addition to 
broadening GSA's and CBP's donation acceptance authority in fiscal year 
2014.\2\
---------------------------------------------------------------------------
    \1\ Consolidated and Further Continuing Appropriations Act of 2013, 
Pub. L. 113-6, Division D, Title V. Section 560.
    \2\ Consolidated Appropriations Act of 2014, Pub. L. 113-76, 
Division F, Title V. Section 559.
---------------------------------------------------------------------------
    These authorities present valuable opportunities to support port 
development. However, these resources have generally been utilized to 
make modest improvements to existing ports or defray the cost of a 
major modernization, not to deliver a full-scale upgrade of the type 
the administration has requested consistently in the President's 
budget.
    We look forward to working with Congress to further explore these 
and other flexible authorities and to continue to highlight the 
importance of these investments.
                               conclusion
    Thank you for the opportunity to speak with you today about our on-
going partnership with CBP and other Federal agencies to address the 
Nation's security and economic needs along our borders. I welcome the 
opportunity to discuss GSA's commitment to strategic investment in the 
Nation's land ports. I am happy to answer any questions you may have.

    Mrs. Miller. Thank the gentleman very much.
    The Chairman now recognizes Mayor Leeser for his testimony.
    Again, sir, we certainly appreciate you traveling to 
Washington to testify before our committee today.

    STATEMENT OF OSCAR LEESER, MAYOR, CITY OF EL PASO, TEXAS

    Mayor Leeser. Oh, you have got to push the talk button, 
huh? Now you tell me.
    Thank you, Chairwoman Miller, Ranking Member Jackson Lee, 
and all the committee Members, and of course, our Congressman 
in El Paso, who I have the highest respect for. Thank you very 
much for inviting me to testify today.
    You know, our ports of entry are so important to our 
community, but it is not only our community in El Paso, and 
that is the important thing that we are here to discuss. One in 
every 24 jobs in the United States basically depend on U.S.-
Mexico trade for their employment.
    I will give you an example in Michigan, Chairwoman Miller. 
Your State alone represents 175,000 jobs, and it is the third-
largest exporter of goods to Mexico, based on the 2012 
information that I was able to receive, which is really 
important.
    If we look at all the States that are represented here, 
which is Texas, California, South Carolina, Mississippi, 
Pennsylvania, we employ more than 1.5 million people and close 
to $120 billion in exports to Mexico. The lack of investment 
not only in the infrastructure but the manpower will create--
will impact not only businesses, but also our ability, and that 
is so important.
    When we talk about the investment in not only 
infrastructure but also the investment in the workforce, 
without the ability to invest in our ports, we would have--we 
would have delay in times, and that is what we are here to talk 
about. We are talking about the P3 program, the 560, which was 
the program that allowed El Paso to invest in itself, and that 
was one of the important things that we are talking about.
    The way we were able to invest in ourselves was we were 
able to fund CBP Officers. Once we were picked as one of the 
five cities in the country to be able to go to this pilot 
program, we then met with the CBP Officers and we kind of 
looked at and said, ``Where do we need to basically move 
forward? Where do we need to invest?''
    We basically looked at the peak times and what peak times 
would make it more acceptable for us. So we basically now we 
meet on a timely basis; we meet every week and we talk about 
how we are improving times.
    I will give you some examples. In pedestrians we have been 
able to decrease the wait time--I mean, we have been able to 
increase the people coming across our bridge by 18 percent, in 
vehicles by 30 percent, and commercial by 3 percent. But when 
you talk about we have increased those, we have also decreased 
wait time, you know, in those lanes.
    So when we are able to fund these lanes and we were able to 
expedite the times where we are basically most needed, you 
could see that our investment in our community and the 
investment in the bridges increased because now people felt 
more comfortable. People felt comfortable being able to come 
across and not have to wait for 2 hours, or an hour, an hour-
and-a-half, to be able to come across and be able to transport 
their goods.
    We all know and we all understand that, you know, time is 
money in business, and if you are sitting on a bridge then you 
are going to find an alternate solution to a problem, which is 
we can't do business together because the wait time is too 
long. We can't sit there and wait for a couple hours.
    So it has become very important for us to be able to 
identify, and identify the times we need. So our community 
invested in itself, and again, our pilot program just started 
on January 26, and El Paso along--between El Paso, Juaarez, and 
Las Cruces we have 2.5 million people. It is a big region.
    El Paso ranks among the top 30 largest exporters in the 
world. U.S. trade is more than $507 billion in 2013. When we 
are talking about 30 percent increase in vehicle traffic, one 
bridge alone had 54,000 more vehicles on that bridge, and the 
trade just in El Paso alone was over--almost $100 billion a 
year.
    Again, I am not just talking about El Paso; I am talking 
about the whole country. It is so important when we talk 
about--again, we talk about Michigan. Michigan, 175,000 jobs 
rely on just El--you know, crossing into our borders.
    Again, I thank you very much for the opportunity to speak. 
Your commitment not only helps El Paso, but the whole country.
    [The prepared statement of Mayor Leeser follows:]
                   Prepared Statement of Oscar Leeser
                             July 16, 2014
    Honorable Chairwoman Miller and Ranking Member Jackson Lee, allow 
me to start by thanking you for the opportunity to appear before you 
this morning. I would also like to thank my hometown Congressman, 
Representative Beto O'Rourke, for inviting me to be here and for his 
steadfast dedication to the constituents of the 16th District of Texas.
    I appreciate the committee's interest in our Nation's international 
ports of entry and for your commitment to examine how the Federal 
Government can prioritize infrastructure investments. I am here today 
to help shed light on the need for investments at our international 
ports of entry for the economic security of not only El Paso, but the 
Nation as a whole.
    One in every 24 workers in the United States depends on U.S.-Mexico 
trade for their employment. Chairwoman Miller, more than 175,000 jobs 
in Michigan alone rely on trade with Mexico, and your State was the 
third-largest exporter of goods to Mexico in 2012.
    Taking a quick look at the other States represented here today, 
Texas, California, South Carolina, Mississippi, and Pennsylvania employ 
more than 1.5 million people whose jobs rely on trade with Mexico and 
close to $120 billion in exports to Mexico.
    Lack of investment both in infrastructure and manpower at our ports 
of entry in El Paso can and will significantly impact business and 
trade in your State. A lack of investment at our international ports of 
entry is a lack of investment in your workforce.
    One investment that has shown positive results in my community is 
one that your committee recently examined. Your committee looked 
outside of the box at how investments could be made at the ports of 
entry by allowing local communities to apply local funds to assist our 
Federal partners. Unfortunately, for years, there has been a lack of 
investment at our ports of entry, and local communities want to help by 
investing in themselves.
    Through Section 560 of the 2013 Consolidated Appropriations bill, a 
pilot program was launched to allow communities like El Paso to help 
pay for additional overtime for Customs and Border Protection Officers 
at our international bridges. The city of El Paso was one of five pilot 
projects chosen for a 5-year test.
    Once the city of El Paso was chosen to partner with CBP, city 
officials worked closely with our community partners to ensure their 
buy-in. I personally met with the maquiladora industry to ensure their 
satisfaction with the project. They understood the return on investment 
that they would see as a result of decreased wait times at our bridges. 
Furthermore, a 5-year pilot project reassured them there was enough 
time to work through any potential issues with new implementation of 
the program.
    Outreach was also conducted to the overall community to ensure 
those who cross via foot or vehicle knew of the city's investment in 
helping open additional lanes during peak hours of operations at our 
bridges. Maquiladora employees, local university students, and 
shoppers, just to name a few, cross back and forth regularly, and it is 
important that we make their trips quick and easy.
    El Paso City Council formally approved the partnership between the 
city of El Paso and CBP as well as approved a $0.50 increase to tolls 
at our bridges to create a dedicated funding source for the pilot. The 
city of El Paso's economic security depends on the flow of goods and 
people across our international ports of entry so it is important not 
only to ensure trade continues to flow freely but that people and 
vehicles can move quickly across the border.
    The pilot started on January 26 of this year, and since the launch, 
we have seen very positive results. The city of El Paso has already 
invested more than $400,000 for close to 3,500 hours of overtime for 
the officers. Traffic volumes have increased substantially over the 
same period last year with an average increase for pedestrians at more 
than 18 percent, close to 30 percent for vehicles, and more than 3 
percent with cargo. Even with volume increases across the board, we are 
seeing a decrease in wait times. We believe that as the program 
continues, we will see larger decreases in the bridge times.
    Aside from the investment for additional officers at the bridges, 
in El Paso, there is a need for additional investment in the actual 
infrastructure. The El Paso-Juaarez region is one of the largest bi-
cultural border communities in the world that includes more than 2.5 
million people. El Paso is ranked among the top 30 largest exporters in 
the world. With U.S.-Mexico trade totaling more than $507 billion in 
2013, El Paso is a major player in this market with close to $100 
billion of that trade crossing our international ports of entry.
    A 30 percent increase in vehicular traffic means that CBP processed 
54,000 more vehicles at one bridge for the same 1 month period over the 
prior year. Add to this the $100 billion of that trade annually crosses 
the El Paso international ports of entry and the strain on our bridges 
is immense.
    In addition, our infrastructure is landlocked and we do not have 
the ability to add additional lanes to help with additional traffic. We 
can work together to ensure the lanes are fully staffed at peak times, 
but there are also a number of infrastructure improvement projects that 
have been identified to assist. My community, however, is again ready 
and willing to step to the plate to resolve these issues.
    The Section 559 authorization would allow the city of El Paso to 
make the necessary upgrades to the infrastructure while allowing CBP 
and GSA to accept the improvements as a donation. The city of El Paso 
recently submitted a letter of intent to participate in this program, 
but I do not believe we should have to reapply. CBP should honor the 
current agreements with communities who have already showed their 
commitment to be a partner and allow the opportunity to work under the 
additional authority as well.
    Aside from the Public-Private Partnership agreement in place, it 
should be noted that the El Paso community continues to show their 
commitment and desire to invest. Recently, City Council approved the 
inclusion of several projects in the overall capital investment plan 
for the city. The city is willing to invest the match dollars to 
execute large-scale projects to decrease wait times and increase trade 
across the United States. Congress must help our partnering Federal 
agencies by providing the funding for programs such as the Coordinated 
Border Infrastructure Program.
    It is my belief that communities will help make the investment in 
areas such as this because of the impact lack of resources can 
ultimately have on a community. I urge you to continue thinking outside 
of the box for a way to help expedite trade across our country while at 
the same time investing in additional officers and infrastructure 
resources that will not only help the El Paso community but the greater 
U.S. population.
    Thank you again for the opportunity to be with you this morning.

    Mrs. Miller. Thank you, Mr. Mayor.
    I thank all the witnesses.
    I will recognize myself for my questions here.
    Actually, as I mentioned at the outset, the whole impetus 
of this hearing was to try to get the list--the elusive list 
that has not been forthcoming from CBP to this committee, 
despite numerous, numerous requests. As I say, we want to know 
who is on the list, how you construct the list, how you 
prioritize the various projects that are on the list. Obviously 
it is for Congress to determine appropriations to do all of 
these.
    As we have mentioned, there are so many that need them but, 
like anything, you have to do a--I think Mr. Wagner called it a 
strategic assessment. Obviously you need to do a strategic 
assessment, but what is the criteria for making that kind of 
call for the construct of any of these infrastructure 
improvements that are necessary at our land ports of entry?
    The mayor pointed out excellent points. We are talking 
about the jobs that are generated because of the commerce that 
is trading, and you mentioned about Mexico, and I am up on the 
Northern Border.
    As I mentioned at the outset, Canada is actually our 
largest trading partner not only in my State, but in the 
Nation; Mexico, our second-largest trading partners. So it is 
critical that these ports of entry and the infrastructure be 
funded and appropriated and we move forward in a strategic 
fashion.
    So I just got this list literally when you walked into the 
committee room today, so I am trying to on the fly here digest 
this list and understand exactly what to--how it was 
constructed. As I understand, this is a 4-year-old list.
    So I guess my first question is: Is there an updated list? 
That would be my first question. Is there a current list? How 
can you be operating at 4 years later?
    One thing in--that would certainly fly out at me is since 
in that time our President and prime minister of Canada have 
entered into the Beyond the Border agreement, which 
specifically talked about infrastructure improvements, 
including the Blue Water Bridge in my district, as a priority 
for the Nation--for both nations.
    I guess that is my first question: Is there an updated 
list? Is there a current list or are you operating under a 4-
year-old list?
    Mr. Scheid. So there are actually a couple of different 
lists. There is the larger list that was provided that is, as 
you would note, 4 years old. That was actually provided to 
Congress back in 2010. I apologize for any confusion about us 
not sending it back up again to you in advance of this hearing, 
but when I came across it this morning I brought up the entire 
assessments.
    It was about 450 pages that explained all the ports and 
their needs; it explains the process by which we used to create 
that list. Given the work that goes into that, it is basically 
like a 5-year plan, although I don't think it is technically 
labeled as such.
    What that does is it is, I mean, essentially a catalogue of 
the existing facilities, and it prioritizes based on about 60 
different weighting factors where we have needs. Actually, I 
mean, it really takes the entire portfolio and identifies where 
there might be wait time issues, where there might be 
electrical code issues. I mean, it is kind of the gambit.
    It takes into, as one of the members mentioned in the 
question, it takes into consideration where there has been 
planning investment already made by GSA or, you know, through 
Congress. So, for example, some of the projects that are on 
that list which are in our more recent list, which I will 
explain, are things like the Columbus, New Mexico port of 
entry, Alexandria Bay, where planning dollars have already been 
appropriated and we are looking for the construction dollars to 
complete those projects.
    So that is the guiding kind-of 5-year plan.
    In addition, the appropriators ask for and we provide what 
was referred to in Mr. Gelber's testimony as an executable 5-
year plan. So as Ms. Jackson Lee pointed out, the report that 
came up in 2010 identified $6 billion worth of investment need. 
Recognizing that $6 billion isn't likely to get appropriated in 
probably my lifetime, we culled down a list that is executable.
    That executable list is about $800 million. The projects on 
that list are San Ysidro phase 2; Calexico West phase 1; 
Alexandria Bay phase 1; Alexandria Bay phase 2; Columbus, New 
Mexico; and Calexico West phase 2; $838 million of investment.
    The first three of those--San Ysidro, Calexico, Alexandria 
Bay phases--are in the 2015 President's budget. Alexandria Bay 
phase 2, Columbus, Calexico----
    Mrs. Miller. Okay. If I could--not to interrupt, but----
    Mr. Scheid. Sure.
    Mrs. Miller [continuing]. In the limited time here, first 
of all, in regards to all the documentation for the 5-year 
strategic plan, as you called it, if it is 450 pages we would 
certainly appreciate all of that documentation so that we are 
really on the same track here----
    Mr. Scheid. Yes.
    Mrs. Miller [continuing]. Understanding exactly what your 
criteria is and how you are moving. I have this list that you 
just went through, three of the first three you mentioned that 
were in the President's proposed budget agreement after several 
years of not having any proposals for ports of entry.
    But if I look at--I mean, I am sure you have the whole raft 
of criteria, and I am just going to go back to the Blue Water 
Bridge because I am most familiar with that, but for the number 
of commercial vehicles of all of the ports of entry in the 
country, the first one is the Ambassador Bridge in Detroit; the 
second is Laredo; the third is Port Huron, Michigan, the Blue 
Water Bridge.
    That is No. 3 in the Nation, and yet these that are on this 
list are--well one of them is not even on my list that goes--
and I don't mean to be pitting one against the other. They 
don't even appear on the list of traffic that is going across, 
if we are considering--if we are worried about jobs, which I 
think certainly all of us on this side are very, very worried 
about jobs. That is part of our job is to make sure we do 
everything we can to improve the economy in the United States.
    So thinking about trade and vehicles going across and 
commerce transiting these different things, again, I don't--I 
am just trying to understand what your criteria is. To me it 
would be hard to think that that is not one of at least the top 
three criteria you would take into consideration as you look at 
these various ports of entry.
    How do you consider jobs and the economy?
    Mr. Scheid. So the various criteria basically fall out into 
four categories: Mission and operations, which would take into 
account some of the existing impact, so impact on the economy, 
wait times; that is 35 percent of the score. Another 15 percent 
of the weighting goes into personnel and projected workload 
growth, so trying to look out into the future about what might 
be coming at those ports; that is 15 percent.
    So 50 percent of the criteria is along the lines of, I 
think, what you are describing.
    In addition, there are security and life safety 
considerations. Ports that have anything from ground water 
issues, electrical issues, 25 percent. Another space and site 
deficiency is 25 percent.
    So certainly the impact on the economy, the wait times----
    Mrs. Miller. Well I would just--again, not to interrupt, 
but in the interest of time--I would just point this out then, 
for the record: The Blue Water Bridge, as I say, is the second-
busiest border crossing on the northern tier. It is No. 3 for 
all the commercial vehicles, et cetera, that are going across. 
We have already done demolition. There is almost 60 acres of 
vacant property sitting in the middle of a busy city that has 
been done over the last decade.
    The Congress has spent millions of dollars to help with our 
Michigan Department of Transportation through earmarks, back in 
the day of earmarks, actually, to get this site shovel-ready. 
It is totally ready--designed, et cetera. Ready.
    Yet, on this list 14 years ago it is No. 22 on your list. 
So I--really, I take issue with how you are--obviously, with 
your criteria and I would like to discuss that a bit more with 
you, as well.
    One other thing I would like to question before--I am going 
to keep taking all the time here, but I will also throw this 
out: We are very interested--and I appreciate some of the 
discussion about creative financing, as well, and taking 
advantage of some of the other private partner--public-private 
partnerships. Actually, on the Transportation Infrastructure 
Committee we intend to put into our 5-year National 
transportation reauthorization some language about P3s, whether 
it be at--to be utilized at ports of entries or roads or 
bridges or railroads or what have you.
    But currently, under the Budget Act, to do something like 
that in many cases you have to upfront all of the money, and 
that is the way the--because of the scoring of the CBO. 
Obviously that negates the possibility of all kinds of P3s all 
over the country, and I guess I am just looking for some sort 
of response to that.
    What is the best way for the Congress to go about trying to 
accommodate, in a changing world and a restricted environment, 
P3s? Would it require promulgating a new rule through GSA? 
Would it require a legislative change?
    Mr. Gelber, perhaps you could discuss that or, if you don't 
know the answer immediately, it is certainly something we want 
to work with you on, because the Congress is very interested in 
doing these P3s.
    Mr. Gelber. Sure. As you referenced, scoring rules or the 
Federal accounting rules that govern many of our projects do 
create some challenges for GSA. That would be something we 
would be happy to discuss with Congress about how to modify 
those. It is not simply a GSA matter, though; it is a larger 
Executive branch and a Legislative branch discussion.
    Mrs. Miller. Okay. Very well.
    At this time the Chairwoman now recognizes the gentleman 
from El Paso, Mr. O'Rourke.
    Mr. O'Rourke. Thank you. Thank you, Madam Chairwoman, and 
thank you for bringing us all together on this very, very 
important issue. As you pointed out, we have issues in the 
districts that we represent that affect the economy, and issues 
of trade and mobility throughout the country. So I appreciate 
your leadership on this.
    I would like to thank, even though she is not here, the 
Ranking Member for ensuring that we get our mayor, Oscar 
Leeser, here to share his experience and expertise on these 
issues of cross-border trade and mobility for legitimate trade 
and travel across our borders, and for his testimony and 
linking something that is important to us in El Paso--one out 
of every four jobs in the El Paso economy is connected to trade 
and travel across our bridge that link the United States and 
Mexico, but as he pointed out, that is connected to 6 million 
jobs in the interior of the United States--in Florida, and 
Pennsylvania, and South Carolina, and Michigan, and every other 
State in the union.
    So this is important for us, but it is really important for 
this country to get it right.
    So my first question for you, Mayor Leeser, is we are 
focused on capital projects and trying to understand how they 
are prioritized, how funding is allocated, what the time line 
is to complete them.
    We have some wonderful ports of entry in El Paso, but our 
challenge, Madam Chairwoman, has been staffing these ports of 
entry. You can have the greatest capital projects plan and 
implementation in the world, but if you can't staff them you 
have really got a problem.
    Thanks to the mayor and the city council with which he 
serves, El Paso was selected as one of five ports, competing 
against all land, air, and sea ports in this country, to pilot 
a program that allows our community, with scarce resources, to 
supplement what the Federal Government is obligated to do and 
increase and expand the staffing at those ports.
    So, Mayor, I would like to give you a minute or 2 to 
discuss the need to complement what we are talking about here 
with capital projects with actually ensuring that these are 
staffed once they are finished. Talk about how important that 
is.
    Mayor Leeser. Well, thank you very much for the question.
    It is really important for us. So far, the program we--like 
I said earlier, it started January 26. Since January 26 the 
city of El Paso has invested a little over $400,000 and about 
3,500 additional hours, which we fund to the CBP.
    Like we talked about, it is very important to the city of 
El Paso for the success of this program, but the beauty of it 
is, you know, when you look at it, it is one of five pilot 
programs and it is very important for the success--for CBP for 
it to be successful for us so they can roll it out and 
hopefully move forward and make it a Nation-wide program.
    So based on that, we have been able to really work hard 
together. Like I said, we meet weekly and we talk about, you 
know, where we are going to gauge the wait time and how we are 
going to staff the bridges properly and where, you know, which 
officers we will be able to fund. We are funding--basically 
what we are funding is overtime right now, and like I said, we 
have spent a little bit--in 4, in 5 months we have spent a 
little bit over $400,000, 3,500 hours, and it is during the 
peak times in the afternoons right now is what we are basically 
focusing on.
    When we talked about a little bit--when we talked about the 
18 percent increase in pedestrian traffic, 30 percent increase 
in vehicle traffic, and 3 percent increase in commercial 
traffic, that increase, in my opinion, is based on funding of 
these officers and being able to open these lanes and make it 
easier to do business in the United States--not only El Paso. I 
think that is the important part that we need to understand 
today: We are not talking about El Paso; we are talking about 
the United States and where it just comes in.
    Being able to have that type of increase and still decrease 
wait time is incredible, and we will continue every week to 
meet and kind-of gauge where that peak times are and where we 
need to continue to fund those officers.
    Mr. O'Rourke. Thank you, Mayor.
    For Commissioner Wagner, in fiscal year 2015 I believe El 
Paso and Buffalo have been selected for another pilot program, 
which would give CBP ownership-like control of ports in those 
districts. Can you talk a little bit about how that is going to 
affect these bridges, the processes and procedures on them, and 
what it will do to address the issue that the mayor raised, 
which is that if we can, in a lawful, secure manner, expedite 
legitimate trade and travel, that increases jobs throughout 
this country.
    So what will this pilot program offer for us, given those 
considerations?
    Mr. Wagner. Thank you. That pilot project entails the 
delegation of authority for the maintenance of the facilities, 
and I will defer to the gentleman on my left for the more 
specifics of it, but it allows CBP, then, to do the routine 
maintenance up to a specific threshold of funding levels, and 
then we will have direct control and direct access of 
maintaining the facility itself.
    But as far as just facilitating and growing the trade and 
travel, which we agree 100 percent with you, is so vital to our 
Nation, it is the expansion of the public-private partnerships 
and the technology and, you know, the processes that we impose 
and making sure they are as efficient and secure as possible. 
Just to echo some of the mayor's sentiments about the great 
productive relationship we have had with the five locations 
participating in the reimbursable services and the transparency 
that we are trying to show in delivering the right data, the 
right information, the right metrics and measurements in 
coordination and agreement with the entities requesting these 
services, so everyone understands exactly what they are paying 
for and what were the benefits that were seen out of that.
    We are off to a great start with all the locations in doing 
this. So, like the mayor mentioned, we are hopeful to continue 
the expansion of this.
    But I will defer to Mr. Schied for a second.
    Mr. Scheid. Briefly, the pilot delegation that we have been 
negotiating with GSA would--what we are looking for is the 
ability to make adjustments--minor--to the operations of the 
port as needed when situations arise, so it is to accommodate 
the mission of the port more readily as well as the basic 
operations upkeep, maintenance of the facility.
    Mr. O'Rourke. Thank you.
    As I yield back, I would just ask that you give us an 
opportunity to meet with you to see what we can do, given this 
change, to capitalize on some of the opportunities to enhance 
the flow of legitimate trade and travel. So thank you.
    Madam Chairwoman, I yield back.
    Mrs. Miller. Thank the gentleman.
    The Chairwoman now recognizes the gentleman from 
Pennsylvania, Mr. Barletta.
    Mr. Barletta. Thank you.
    Thank you all for participating today.
    Just this morning in the Transportation and Infrastructure 
Committee we approved 27 GSA resolutions authorizing projects 
in GSA's capital improvement program for fiscal years 2014 and 
2015. This includes three port of entry projects in New Mexico, 
New York, and California.
    At Calexico, California over 11,000 privately-owned 
vehicles and nearly 13,000 pedestrians enter the United States 
every day. Today we approved updating this 1974 facility to 
accommodate modern inspection technology for private vehicles 
and improve the pedestrian crossing.
    This is in addition to border projects we approved in 
February for Laredo, Texas and San Ysidro, California, which is 
the biggest land border crossing in the country. So I know the 
Transportation and Infrastructure Committee and the Homeland 
Security Committee stand ready to work with you to get these 
critical projects not only approved but also moving forward.
    I am going to follow up on a question Chairwoman Miller 
brought up, Mr. Gelber. I recognize that the fiscal year 2014 
Consolidated Appropriations Act gave CBP new authority to use 
public-private partnerships, frequently called P3s, for ports 
of entry.
    Now, our ports of entry are centers of major economic 
growth, as goods are transported back and forth across the 
border. Last year I visited San Ysidro and saw traffic jams 
created by insufficient infrastructure. Excessive lines of 
commercial vehicles at the ports of entry are wasted economic 
opportunities.
    The communities and industries around these ports of entry 
are ready to invest in the much-needed infrastructure.
    I sit on a special P3 panel with Chairwoman Miller, and we 
have been working to better understand the role public-private 
partnerships can play in leveraging private capital as well as 
private sector efficiency and innovation. In a Transportation 
and Infrastructure Committee's special public-private 
partnership panel we have repeatedly run into a brick wall 
regarding the budgetary scoring of public-private partnerships.
    The Transportation and Infrastructure Committee is not the 
only committee to face such scoring roadblocks for P3s. I have 
also heard that the scoring is a problem for some veterans and 
defense projects as well.
    Could you discuss with how these budgetary scoring problems 
impact P3 infrastructures for border crossing projects? If you 
could explain how----
    Mr. Gelber. The challenge regarding scoring or Federal 
accounting rules is that whenever the Federal Government is 
engaged in investment in a particular project, the costs of 
that investment are assembled, if you will, in the first year 
of that project. So if the Federal Government is going to be 
building a facility for $250 million, the entire cost of that 
project has to be accounted for in the initial year even if the 
expenditure occurs over multiple years. If the Federal 
Government is going to be leasing a project from a private 
entity, and let's say hypothetically that lease over the course 
of 20 years is $300 million, the entire cost of that $300 
million lease has to be accounted for in the first year even 
though the rent payments occur on a monthly basis over the 10 
or 20 years of that lease.
    So the challenge that we have with the budgetary impact, 
the scoring rules that you reference, in effect take money away 
from our budget authority in order to implement many of these 
projects. I hope I have given some justice to these rules. It 
is a rather complex area in terms of how Federal accounting and 
Federal budgeting is tallied, if you will.
    Mr. Barletta. Thank you.
    Mr. Wagner, I know your agency is working to build new port 
of entry facilities. When I was at the border earlier this 
month a Border Patrol Agent expressed to me that the Border 
Patrol has a difficult time patrolling some areas between ports 
of entry due to a lack of roads and infrastructure.
    How is your agency working to prioritize building roads and 
infrastructure between new and existing port of entry 
facilities to better help agents do their job? What can 
Congress do to help?
    Mr. Scheid. So that would fall into a class of assets that 
CBP owns, and absolutely the roads, I think, are some of the 
most vital tools that Border Patrol Agents get out of the 
overall infrastructure improvements, which includes lighting, 
fencing, but certainly access and maintaining roads is critical 
to their ability to do their job.
    The prioritization of that largely comes from the Border 
Patrol. They are identifying a mission need--areas where they 
prioritize the greatest need for access. My office then works 
with them to deal with land issues, the funding issues that 
come with that. But there is a process we use to prioritize new 
investment and maintenance, as well, into infrastructure, 
roads, and fence.
    Mr. Barletta. Mrs. Miller, could I just ask one quick 
question?
    Mr. Wagner, as Customs and Border Protection modernizes and 
builds new port of entry facilities how does it plan to 
prioritize and implement a biometric entry-exit system, as 
required under the current law?
    Mr. Wagner. So we have recently opened our test facility in 
Landover, Maryland, in partnership with the DHS Office of 
Science and Technology. We will be spending the rest of this 
calendar year looking at different types of biometrics and 
different types of operational uses where we can implement 
them.
    Principally going to be focused on the air environment 
right now for commercial air travelers, but with an eye towards 
how would this also work at the land border without creating 
gridlock and congestion even more so than there is now? Then, 
you know, looking at the additional challenges that the land 
border is having--not really having any facilities that would 
support stopping cars, collecting a biometric, and figuring out 
exactly that concept of operations, how to do it.
    So we have started this essential work in evaluating the 
different technologies that are out there and then working 
through some of the different concepts of operation on how we 
would implement that. But, like we have spoken before, I mean, 
we see it as critically important. We want to collect the 
information. We just want to make sure we are collecting it in 
a way that doesn't create gridlock and shut down travel and 
trade in a way that it jeopardizes our authority to even 
collect it.
    But we do realize the importance of it, and we are going to 
figure out a way.
    Mr. Barletta. I hope we do. You know, John F. Kennedy--I 
like to use the example, John F. Kennedy in the 1960s, before 
we even had a space program, promised that we would put a man 
on the moon and bring him back before the end of the decade. Lo 
and behold, the great United States of America was able to do 
that.
    We have been trying to figure this out for 25 years and we 
haven't done so yet, so I hope we get lucky and try to get it 
done, because I believe it is critical to our National security 
that we are able to do this if we are going to have true border 
security.
    Thank you.
    Mrs. Miller. Thank the gentleman.
    The Chairwoman now recognizes the gentleman from South 
Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairwoman.
    Mr. Wagner and Mr. Schied, I just want to say that the week 
of the 4th I was in Montana on a family vacation and took the 
initiative to set up a tour at the Port of Roosville--Highway 
93, north of Kalispell, north of Eureka, border crossing with 
Canada--that I had been through on numerous times in the past. 
I had seen the infrastructure changes there from an old port of 
entry of two lanes and an old National Park Service-type booth 
that was there, if you have been to Glacier or other places, 
very similar historically, but now we have a 21st Century 
modernized facility there at the Port of Roosville.
    The area port director for that region, Daniel Escobedo, 
APD Escobedo, did a great job--and the men and women that are 
serving up there are serving very well. So I give a shout out 
to them, and I appreciate them taking the time to visit.
    I shared with them, Madam Chairwoman, that a lot of the 
focus in our country right now is on our Southern Border, but 
those on our Northern Border haven't been forgotten. I shared 
the fact that you, being in a Northern Border State, shared 
that interest, as well, and that we have talked about, ``Don't 
forget about the Northern Border.'' So I shared that, that 
those folks have not been forgotten, and I asked APD Escobedo 
to share that with all the folks--267, I think, people under 
his charge.
    But one thing I noticed while I was up there is they are 
focused on ag issues, what items could be brought across from 
Canada, to the point of inspecting picnic baskets from 
Canadians coming into Montana to maybe go to Glacier or one of 
the natural resources there in Montana.
    They can't bring citrus into the country. They can stop at 
a grocery store and buy American citrus, but that is a concern 
of theirs. They are concerned about the aquatic invasive 
species, working with the Montana Fish and Wildlife Service who 
had representatives there in the facility to inspect boats, not 
bring aquatic--all that is important, and I applaud them for 
that.
    But I think about our Southern Border about--we have no 
idea what is coming into this country at this point. We have a 
porous Southern Border and folks are coming across, human 
smuggling, not just the children but others that are exploiting 
this situation that we have when we have no idea what is coming 
into our country, but yet we have got brave men and women at 
our Northern Border and they are looking in picnic baskets.
    The juxtaposition of those two things struck me as a wow 
moment, going, you know, we are looking at boats and making 
sure all the water is drained out of the live well and there is 
not a bit of aquatic grass or anything on a boat that is coming 
into Montana, or making sure there is not an apple in a picnic 
basket or a citrus fruit of any sort. But yet we don't know 
what is coming across our Southern Border.
    One thing I was amazed at, talking about infrastructure, 
because I hadn't thought about this, Madam Chairwoman, and 
maybe you have, but the buses of tourists that come back and 
forth across the border. There was, in the Port of Roosville, 
an area for buses to pull in because it is cold up in Montana 
in the winter time, where every passenger has to get off that 
bus; every passenger has to have a verifiable passport; every 
bag has to be connected with a passenger, and if there is a bag 
that isn't connected it is quarantined and it is searched.
    Just the monumental effort of doing that in inclement 
weather is quite a challenge, because our Border Patrol 
Agents--not just the guys out on the horses and on the ATVs and 
in the trucks patrolling the border, but the guys in the Border 
Protection services, you have got to get it right 100 percent 
of the time. The bad guys only have to get it right once to do 
great harm to this country. They only have to get it right once 
to bring a nefarious item into this country that could be used 
to do great harm.
    You guys have to get it right 100 percent of the time in 
order to protect this country, and that is not lost on me. 
Drugs, human smuggling, contraband, and nefarious items are 
things I wrote down here that they have got to look out for.
    I watched at that border the border agent, what questions 
he asked, how he verified the documents, inspection of the 
vehicle. I watched him do it over and over and over, and I am 
so thankful that those guys are dedicated to keeping me and my 
family safe, to keeping my country that I love so much safe.
    But I think about all the porous areas in the south that 
are being exploited every day and I go: Why can't America get 
this? Let's build a fence. Let's secure our Southern Border. 
Let's do the simple things to secure this Nation.
    Let's support the guys that are wearing the blue standing 
at those booths inspecting those cars for the apples and 
everything else. Let's support them. I think support means we 
secure our Southern Border, as well.
    I kind of tie my comments to the gentleman from El Paso and 
to the mayor, because--but with caution--because I understand 
the trade issues. I understand the need for better 
infrastructure for legitimate trade.
    But I have got to couple that with the threats to this 
Nation and the violation that we see on our Southern Border 
every day of our National sovereignty. Laws are on the books 
for a reason. You guys are doing your job at the border, at the 
ports of entry because there are laws that require you to do 
that to keep our country safe and to protect our citizens.
    But other laws are being ignored and the Border Patrol is 
not being supported with regard to the exploitation of our 
Southern Border. So we have got to get this right as America.
    We can talk about the humanitarian issue with the children 
coming across, and I am very sympathetic to that. I want to try 
to help the children.
    But I also want to repatriate them back to their families 
and their homes and their countries of origin because they came 
here illegally. Regardless of their stature, regardless of 
their age, or regardless of why they came to our country, they 
still came illegally.
    So I want to try to support you.
    I want to try to support legitimate trade, Mr. Mayor. I 
agree that we have got to get that right, as well, because 
there are tremendous opportunities for American businesses and 
foreign businesses wanting to do business in this country.
    There is a legitimate need, Madam Chairwoman, for us to 
know what the infrastructure needs are, for us to get actually 
a prioritization of what CBP and DHS wants as far as, you know, 
where they are going to spend this money, how they are going to 
spend this money, how they are prioritizing. Do they build an 
infrastructure at the Port of Roosville or Sweetgrass in 
Montana, or do they focus that in El Paso or Nogales or 
somewhere like that, where there is a lot of trade?
    So that is why it is so important for you guys to come and 
bring the information that is necessary for our oversight 
function and for us to say, ``Hey, when we go to an 
appropriations process this is why. Convince us that this is 
how you want to spend the money, this is where the need is in 
this country, and let us go to bat for you.'' But without that 
information in a timely manner it is difficult for Members of 
Congress that may be in agreement with you to actually do our 
job and to actually go to bat for you.
    So in absence of that information, you are not going to 
have a whole lot of friends on this dais because we don't have 
the information needed to make necessary and correct decisions 
for this country.
    You have a challenge. The Northern Border is huge. The 
Southern Border is huge.
    I will leave this information with you: We spend 
approximately $3.2 million per mile to build a four-lane 
interstate highway in a rural area in this country, on average. 
Think about that for a minute. A four-lane interstate highway--
purchasing right of way, grading, paving, fencing, signage--
approximately $3.2 million.
    We spend about $4 million to $6 million per mile to build a 
fence in this country--let me back up. I got that reversed. 
Four million dollars to $6 million to build a highway, four-
lane highway; $3.2 million to build an interstate--I mean, to 
build a fence. It is not that big a difference, is what I am 
getting at.
    So if we spend $4 million to $6 million per mile to build a 
four-lane highway and $3.2 million per mile to build a fence, 
why not just build a four-lane highway? I am being a little bit 
tongue-in-cheek facetious there, but what I want to point out 
is there is a 700-mile border.
    The Secure Fence Act 2006 said build a fence. If you built 
a fence at $3.2 million per mile for 700 miles that comes to 
$2.24 billion. Good golly, if you did the--if you really looked 
into how much this Government blows every day and every year, 
surely we can appropriate $2.24 billion to build a 700-mile 
fence.
    With that I yield back.
    Mrs. Miller. Thank the gentleman.
    The Chairwoman now recognizes the Ranking Member, Ms. 
Jackson Lee.
    Ms. Jackson Lee. Let me thank the Chairwoman. This 
committee is probably noted for its bipartisanship, but we are 
collegian in our disagreement.
    Mayor, coming from your great State, as I do, I don't have 
the same perspective, and frankly, totally disagree with the 
assessment of my good friend.
    We have not had a catastrophic terrorist act on our soil 
since 
9/11. We have had incidences that have been a result of many 
issues. In particular, we are reminded of the huge tragedy in 
Boston, and that was, in fact, a failure of intelligence and 
communication that we know we have to continue to correct.
    We have had incidences of the shoe bomber, and that was 
thwarted. As I have been privileged to be in Classified 
briefings, any number, because of the new Homeland Security 
Department, covering all of the gamuts, from Mr. Wagner's team 
to Border Patrol Agents to ICE Officer to TSO Officer and 
others, our intelligence units have contributed to the safety 
of your city.
    Those of us who live on the border in Texas don't 
particularly have our hair on fire unless provoked by 
individuals who want to make an international issue. I am 
always reminded of the contiguous countries in Europe and 
elsewhere where there is a free flow of individuals and they 
don't necessarily count the border issue as the basis for 
terrorism.
    As we have seen here, there is home-grown terrorism; there 
are issues going on in places like Syria and Iraq that generate 
jihad and people moving from places; there are Americans who 
have become radicalized on the internet; we have had tragic 
incidences in our States at Fort Hood.
    So I think we have to be very careful to have a mayor from 
El Paso and begin to describe circumstances that are really not 
realistic.
    Mayor, let me ask you a simple question: Do you want your 
city to be secure?
    Mayor Leeser. Well absolutely, but one thing that I do 
want----
    Ms. Jackson Lee. If I may ask the questions----
    Mayor Leeser. Yes, ma'am.
    Ms. Jackson Lee. Just yes or no, you want your city to be 
secure?
    Mayor Leeser. Yes, ma'am.
    Ms. Jackson Lee. Do you believe that your city, which is a 
local jurisdiction, continues to have a very positive 
relationship with those who are responsible for the border? You 
have a city that has a port of entry. You have a number of--you 
have a team, you have a large conglomerate of Border Patrol 
Agents, and you have CBP. Do you feel there is a strong working 
relationship there?
    Mayor Leeser. Yes, ma'am.
    Ms. Jackson Lee. Do you feel that this hearing that is 
about infrastructure, that improved infrastructure and 
technology and other contributions to that border structure 
would be helpful to your city?
    Mayor Leeser. Yes, ma'am.
    Ms. Jackson Lee. Do you believe that you have a vibrant 
exchange of business, both in terms of Americans traveling to 
Mexico and beyond and those coming into the United States who 
are engaged not in terrorist and/or criminal activities but 
engaged in trade, is that a vigorous part of your city's 
culture and economy?
    Mayor Leeser. Yes, ma'am.
    Ms. Jackson Lee. So this hearing speaks to the 
infrastructure of trying to improve that circumstance. Is that 
positive for you?
    Mayor Leeser. Yes.
    Ms. Jackson Lee. So let me then yield to you, because you 
wanted to expand. My interpretation that our hair is not on 
fire, that we are used to the ingress and egress of 
individuals, both Americans and others, is that accurate? Were 
you going to comment on that? Is that accurate?
    Mayor Leeser. Well, what I was going to comment on, that, 
you know, you talk about El Paso, which is population of a 
little over 800,000 people, and based on FBI reports, we are 
the safest city over 500,000 in the United States. That is very 
important to--based on all the questions you just asked me--to 
put out there, that we are the safest city in the country.
    Ms. Jackson Lee. I think that is an important point. I join 
the Chairwoman in the importance of this hearing, but I take 
great pains and great opposition to the characterization of our 
border--Southern Border--and the characterization of our State.
    Mr. Wagner, let me ask two questions: No. 1, can you--do 
you need more resources, as we move into the appropriations 
process, to supplement some of your staffing needs? 
Specifically in terms of infrastructure, as well, what aspect 
of infrastructure would you welcome--technology, rebuild of 
ports of entry? What would you welcome?
    Mr. Wagner. Thank you. Actually, all of the above----
    Ms. Jackson Lee. Very good. We are going to fight for you.
    Mr. Wagner. Thank you. Thank you for your support on this. 
You know, we have submitted with the 2015 budget proposal a 
need for 2,373 additional CBP Officers. You know, we have a 
workload staffing model which has taken every action CBP 
Officers do at a port of entry and it has quantified that data, 
and it translated into work hours that are needed and into 
personnel that can actually accomplish that work. That was 
submitted as part of the administration's 2015 proposal.
    Technology is a tremendous help with that, and we have 
deployed a lot of really creative technology packages, starting 
at the land border with the RFIED, the radio frequency 
identification enabled travel documents, that allow us to 
query--perform a name-based computer query of every single 
person, almost, crossing the border. You know, before that we 
were querying about 5 percent of the people crossing the 
border; we are now into about 97 percent, based on that 
technology.
    You have seen at the airports, like in Houston, the global 
entry kiosks, the self-service kiosks. We work closely with the 
city and the airlines to put in these automated passport 
control kiosks to help travelers do part of the inspection 
process rather than just sitting and waiting in line.
    So really we have had some really creative approaches to 
the technology support, but it can't replace what the officer 
then brings--the CBP Officer brings to that process to 
determine a person's purpose and intent of travel. That is 
something we haven't found a piece of technology that can 
determine that for us, you know, and you need the officer's 
judgment to question a person and determine, what is the 
purpose and the intent of what they plan to do in the United 
States, to ferret out those that do intend to do us harm.
    Like you mentioned, the threat is still out there and----
    Ms. Jackson Lee. Absolutely.
    Mr. Wagner [continuing]. There are still those people out 
there, they are still plotting against us. You are right, you 
know, we have to remain vigilant to do that.
    Now, the facilities themselves--better facilities will help 
us accomplish that work better and more efficiently. If we can 
move the compliant people out of the way and get them to their 
destinations and onward and be productive, that helps us focus 
in on who are the bad actors amongst the group, what are the 
dangerous things coming in.
    So having facilities that help support those programs that 
allow us to remove the compliance populations away and then 
help us be able to better focus in on the areas in a risk 
assessment process on how to do that, so----
    Ms. Jackson Lee. Thank you.
    Mr. Wagner [continuing]. It is a combination of personnel, 
technology, and facilities that will help us do it. Thank you 
for your support.
    Ms. Jackson Lee. The Chairwoman has been gracious in our 
time.
    I just want you to, if you would in writing, because I have 
a quick question for Mr. Gelber--welcome, sir--from GSA. In 
writing, give us how the 559 private partnership--private-
public partnerships are working.
    Then can you just answer this: In the course of your work 
dealing with the individuals coming across, is the Wilberforce 
bill dealing with human trafficking and dealing with 
unaccompanied children and their rights, has that interfered 
what you do in your work?
    Mr. Gelber. It hasn't interfered; it is just the challenge 
of the logistics of taking the children, holding onto them 
until Health and Human Services can respond----
    Ms. Jackson Lee. So we need to give you help on that end--
--
    Mr. Gelber. Yes.
    Ms. Jackson Lee [continuing.] For the expedited response to 
get those children away from you----
    Mr. Gelber. It is--right.
    Ms. Jackson Lee. Pardon me? I am----
    Mr. Gelber. It is the capacity of the system and the 
process to handle the influx of----
    Ms. Jackson Lee. I will just ask him to put it on the 
record.
    Mr. Gelber, if you could write on the record--the 
Chairwoman has said she has a markup and I thank her for her 
time. If you could just give us in writing what your assessment 
is of GSA's continued operation of some of those areas--ports 
of entry.
    Sorry for the fact that I can't get on the record, but I 
want to thank you for your service.
    Mr. Gelber. Thank you very----
    Ms. Jackson Lee. We will be in touch directly.
    Mrs. Miller. Thank the gentlelady.
    The Chairwoman now recognizes the gentleman from Florida, 
Mr. Clawson.
    Mr. Clawson. I want to assure Ms. Jackson Lee that I like 
your State a lot. I like the border.
    Mayor, thank you for coming. You have an incredible 
challenge on your hand, but you have a wonderful city and a 
wonderful area, and I know a little bit about it, and I am glad 
you came today.
    Ports of entry are important to Florida in so many ways, so 
this is something that is important to my constituents. I 
understand a little bit about what you all are talking about 
with respect to trade and life on the border.
    I have managed factories in the Nuevo Laredo, in Monterrey, 
in Chihuahua, Apodaca, Allende. I know a little bit about this 
area, and I have lived 100 miles south of the Laredo, Texas 
border myself.
    It is not only a business and services question, of course, 
but it is also a humanitarian question, as so many people 
depend on that transporter traffic for their daily life, from 
education to what they buy to what they sell. So what you all 
are doing, I guess I am saying first of all, is so important to 
our country and to our well-being not only in terms of 
security, which we hear so much about, but also I am agreeing 
with you with respect to commerce.
    I learned quite a bit today. I have probably been here less 
than you have--many of you. But I am--I feel a little bit in 
the dark. In my background I would say that I feel like I have 
come to a board meeting without a board book, and so I am 
hearing management tell me that they would like to make capital 
expenditures and move their strategic plan along, and I do not 
have data that shows me how they have earned it.
    I am not doubting that you have earned it. Mayor and the 
rest of you, when you speak anecdotally about some of the 
improvements and how you are getting more throughput through 
the border, I am not doubting that at all.
    But if you want my support for more money I need to know 
how you have earned the money in the past. That is called 
fiduciary or constituent responsibility.
    So speaking for myself, it is hard to show up at a meeting 
with no data about previous projects, about future projects, 
and about what you have earned without capital expenditures, 
because all management is responsible for improvements that 
aren't capital expenditure-related. I am not making the point 
that I am saying that you are not doing that.
    What I am saying is that I need some professional summary 
data here so I can make my own assessment of it beyond 
anecdotes that I am not--that I do not doubt, but I need more 
fulsome information to make a rational financial as well as 
humanitarian choice for these sorts of projects.
    So if I had, in my words, a strategic plan that was put in 
front of me with what your projects are, what the criteria are, 
and how you have earned it from your improvements of the past, 
it would help me make a decision. Because without that I am not 
sure I have a meaningful opinion, other than to just listen to 
what you are saying and say it sounds good.
    So if any of you would like to respond to that, that would 
be great. But without more data it is hard for me to say yea or 
nay or anything you are asking for because I feel like you have 
left me in the dark.
    Mayor Leeser. I would like to respond to that, sir.
    Mr. Clawson. Yes, sir.
    Mayor Leeser. Congressman, one thing that the 560 program 
does, it gets the community of El Paso and the citizens of El 
Paso to invest in the P3, the private partnership. We have 
committed $1.5 million to help fund officers and pay overtime 
to be able to expedite.
    One thing about the 560, we will not--our job is not to 
tell them how to do their job; our job is to help them fund 
their officers to help us bring trade and open up those lanes 
for the city of El Paso and the whole United States, really. 
Our investment by our community and our citizens is really an 
investment in the United States and an investment in the 
workforce not only in El Paso but Nation-wide.
    So we have invested $1.5 million to add additional agents 
and add--and pay for additional hours. In just a few--almost 5 
months we have--from the sense of El Paso paid a little over 
$400,000 and 3,500 hours have been funded.
    One thing we do ask also is the 559 program, which was 
referred to, that we allow us, based on our investment and our 
commitment--because we are landlocked in El Paso; we can't add 
additional lanes; we can't add any additional capacity. So we 
can help fund the officers, but we also would like not to have 
to reapply for the 559 program but give us the ability to help 
fund some infrastructure, again, to make that--to be able to 
make it easier, again, on our community and our country.
    Thank you.
    Mr. Clawson. Right. I want to be supportive, but I need to 
know how your program fits into the overall strategic plan of 
the CBP. I think that would make sense for you guys, right?
    Mr. Scheid. Absolutely. I think that there is the data that 
is there, and we are certainly happy to provide that to you, 
both from the facility standpoint but also the workload 
staffing model that we use to justify the request for 
additional officers. I think there are also independent 
assessments that have been done that I think give you a lot of 
that sort of business case that you are looking for, and we 
would be certainly happy to follow up with that.
    Mr. Clawson. I acknowledge much of the information may be 
there, and since I have only been here a few days I may not 
know where it is. I would always say the way to manage a board 
of directors is to make it easy for them and don't make it hard 
for them.
    If you want to make it easy for me, bring me data that I 
can understand that shows you are doing your job, you are 
taking care of taxpayer dollars, you are defending taxpayer 
dollars, and when we give you a dollar you are making great 
productivity out of that dollar. Make that case. Show me how 
the mayor's program fits into that and you are much easier to 
have allies.
    But if I am kind of lost in data up here, I am sorry. We 
are doing a lot of other things here and we have got to--you 
have got to help us out a little bit. If you do, I am all ears.
    I yield.
    Mrs. Miller. Thank the gentleman very much. Again, we 
certainly welcome you to the committee.
    Even though you have only been here a short period of time, 
you make a very excellent point about information. It is 
difficult--I don't care what your business is, but particularly 
if you are a Member of Congress trying to make determinations 
about spending the taxpayers' dollars and you are trying to do 
it in a vacuum without the information.
    I will just point out again, we did not have this list that 
we are now looking at. For the last several months we have been 
asking for the list. So appreciate we did get it 10 minutes 
before the hearing started.
    Before we close, I just have one follow-on question, as I 
have tried to digest this list--the 4-year-old list. I think I 
was told that how you weight this to prioritize, et cetera, 
about half of it is economics; and then the other half, I 
think, is sort of flow. I am looking at your priority here, so 
half economics, half flow, essentially. You have got all these 
other criteria there.
    Yet, by that measure, looking at some of these that have 
been--these--two that were funded in the President's budget 
this year, and then a couple of others that are one the--your 
list that you provided us here today for capital priorities, 
one of them is not even on my list of commercial vehicle flows, 
and yet they are next up to get funded. I am just telling you 
again, here is the Blue Water Bridge in Port Huron is No. 3, 
and we are 22 on the list.
    So when you talk about how you prioritize, what you 
testified today does not bear out. I cannot make the numbers at 
least gel in my mind here if you are looking at economics and 
traffic flow for how you have prioritized this list.
    Again, I just go back to the Blue Water Bridge because, in 
addition to the actual flow and the economics, it has been 
identified by both President Obama and Prime Minister Harper, 
the leaders of the two nations that are impacted, as a priority 
in the Beyond the Border agreement, unlike these others that 
don't appear on many of these other lists.
    So I don't understand this. Can you help me out? It doesn't 
make sense, of what you have testified to how you have come up 
with this list.
    Understanding that you do have to have long-term, 5-year 
strategizing here, do you plan to update this list? If you do, 
can you share that with us as well? Are you changing your 
criteria?
    Mr. Scheid. So yes, we will plan--do plan to update that 
list. It is now, as you point out, several years old. Many of 
the projects on that list have been worked. In some cases we 
continue to look for public-private partnerships, smaller 
improvements that, in the absence of--the several years where 
we had no capital investment appreciably coming in, trying to 
find smaller incremental improvements--stacked booths, those 
kinds of things--to do what we could to alleviate the wait 
times. But it is absolutely time to update that list.
    I think in terms of the criteria, the--I think a lot of the 
criteria do stand: Economics being an important driver, 
safety--having the right----
    Mrs. Miller. Economics being half, right? I think you 
testified to that, approximately--a heavy weight.
    Mr. Scheid. A heavy weight.
    Also, the overall mission need of that facility. So there 
is the enforcement aspect of the mission that has to be 
accommodated there. So the mission includes both the--
facilitating the flow of traffic as well as being able to do 
the enforcement activities. I think those criteria are good.
    I think in addition to it we--something that didn't really 
exist a couple of years ago is the public-private partnership. 
I think figuring out a way to take those opportunities into 
account and to, you know, bring that new 559 into this process, 
where communities have investment that they can bring to the 
table and how should that impact the scoring of--or the ranking 
of the list.
    Because a community may want to bring resources to the 
table and perhaps donate the capital, the overall lifetime life 
cycle of that facility is going to be--well----
    Mrs. Miller. Okay. Again, I just--what you are testifying, 
as you use this criteria and the way that the construct of this 
list looks like to me is a complete disconnect, I believe, at 
least in my mind.
    Let me just ask you one other question. Again, I am not 
trying to pit one area against another----
    Mr. Scheid. Sure.
    Mrs. Miller [continuing]. But here you have one in 
Columbus, New Mexico. It is up next, essentially. What is it 
about that particular one, that you weight economics and flow 
and security and all of these things, that they are up next?
    Mr. Scheid. So one of the additional considerations is 
prior investments that Congress has funded for a port. So with 
Columbus there have been several different appropriations over 
the past couple of years for the planning and design of the 
Columbus port of entry.
    There are sufficient and significant needs to be addressed 
at that port of entry. The commercial volume there is pretty 
substantial. It is cyclical, but there is a significant mission 
need for that facility.
    Congress has, on several different occasions, including----
    Mrs. Miller. In regards to the commercial, they are not 
even on the top 20, but continue.
    Mr. Scheid. But they have--so there are significant wait 
times at the Columbus port of entry, with agricultural products 
coming in, and there is a need to be addressed there.
    In 2014 Congress appropriated $7.4 million for the design 
of the Columbus port of entry. It also previously received 
appropriations in 2009 for some design work. We believe we want 
to--we have got a need to be addressed and we want to continue 
with the construction of that project.
    So having----
    Mrs. Miller. Not disputing the need.
    Mr. Scheid. Okay.
    Mrs. Miller. I mean, believe me, everybody has got a need. 
But if you are actually prioritizing as you have testified, 
this is a complete disconnect in my mind.
    But at any rate, when will you be updating the list? What 
is your plan as far as taking a look at this 4-year-old list 
and taking into consideration all these various things that you 
have said, some that have been funded, some that have changed--
various factors have changed, some that have interests in P3s, 
et cetera? I mean, what is your--how will you proceed on the 
list?
    Mr. Scheid. Coming up with a complete redo of that list in 
2015, so the next fiscal year.
    Mrs. Miller. Okay. Very good. Well we certainly, obviously, 
are looking forward to that. I don't mean to be adversarial 
about this.
    I know my questioning sounds that way, but I represent a 
community, talking about significant investment--tens of 
millions of dollars has been--people have lost their homes, 
they have been condemned, they are demolished. Businesses--I 
mean like auto dealerships, large businesses--condemned, 
demolished.
    We have got 60 acres of vacant property sitting in the 
middle of a very busy--a city, and at the second-busiest 
crossing on the entire northern tier of our Nation, and, you 
know, and we were started at I think 87- or 86-acre plaza site, 
the footprint; we are now down to 16 acres. So it has 
significantly been--I mean, really significantly downsized, 
trying to work with CBP. We want to work with CBP. Obviously I 
use this because I happen to represent that area so I am 
intimately familiar with all the details of it.
    But there are others--obviously, others around the country, 
as well. So when you look at some of these lists you think, 
what? The criteria just--it just doesn't make sense to me. Some 
of them, yes, of course; but some of them, what?
    At any rate, I certainly appreciate the testimony from all 
the witnesses. I would say that Members of the committee may 
have some additional questions, as well, and we will forward 
those to you and ask that you would respond to those, as well.
    Pursuant to the committee rule 7(e), the hearing record 
will be open for an additional 10 days.
    I thank you very much for your attendance, again, today; 
particularly you, Mr. Mayor, who had to travel such a long 
distance. I will tell you that your Member of Congress speaks 
so highly not only of you but very passionately about the city 
that he is so honored to represent. So you have great 
representation here with him.
    But without objection, the committee stands adjourned.
    [Whereupon, at 11:37 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

          Questions From Honorable Tom Marino for John Wagner
    Question 1a. What is the process and how long does it take for GSA 
to begin work on a new Port of Entry compared to the time frame to 
enhance, expand, or improve an existing, established border operation 
once funding has been authorized?
    Answer. GSA will respond with additional detail on this question. 
U.S. Customs and Border Protection (CBP) can only provide a notional 
timeline for a new vs. existing land port of entry (LPOE), as the lead 
times are port-specific and may vary based on the port's size, 
condition, and the amount of improvement needed to modernize the 
facility. Factors such as land acquisition, historic preservation, and 
environmental compliance can greatly affect a project's duration and 
must be taken into account.
    Question 1b. When existing ports of entry have tangible needs and 
even phased renovation or enhancements under way, why wouldn't those be 
completed before initiating new ports of entry, especially within the 
same traffic corridor?
    Answer. To better achieve the agency's mission, CBP, in 
consultation with local, State, Federal, and international partners, 
employs a multi-faceted planning process to assess operational needs 
and project opportunities. This not only includes utilizing the 
agency's strategic resource assessments but also factoring in regional 
border master planning and international infrastructure coordination, 
such as the U.S.-Canada Beyond the Border Initiative and U.S.-Mexico 
Shared Border Management Initiative.
    Given a LPOE's role within a larger international transportation 
network, we must consider a host of inspectional and facilitation risks 
and opportunities when assessing investments. This includes an analysis 
of whether to modernize existing ports, introduce new ports, or 
optimize the staffing resources and technology to potentially avoid 
substantial capital investment altogether. In some cases, given traffic 
congestion and the land-locked nature of a site, the only effective 
long-term solution is to begin to consider investment in a new site 
within the transportation corridor. Furthermore, the multi-year time 
frame required to plan, design, and construct a selected facility, 
while simultaneously conducting operations, lends itself to creating an 
investment portfolio that phases existing LPOE investments alongside 
exploring opportunities for new LPOEs. Given fiscal constraints, the 
agency also must assess the viability of an existing port or new port 
project based on Federal funding availability or potential for 
alternative financing, in conjunction with the assessment of whether it 
is in the National interest.
    Recognizing the dynamic and evolving mission of CBP at the border, 
as well as the economic/security interests of the Federal Government, 
international stakeholders, and border community, the agency must 
maintain a forward-leaning process to assess the factors outlined above 
and leverage a number of financial and execution tools to address 
existing and new port opportunities.
    Question 1c. Does GSA/CBP have any obligation to complete projects 
that have been authorized and initiated at existing ports of entry 
before contemplating new ports of entry?
    Answer. Although CBP does not have a specific policy that precludes 
the agency from engaging in new projects while simultaneously providing 
phased design and construction funding for existing projects, we 
generally do seek to follow through on projects already initiated. To 
address the needs of the CBP-operated portfolio of 167 LPOEs across the 
Southern and Northern Borders, CBP and GSA, capital construction 
funding permitting, typically work on multiple LPOE improvement 
projects in any given fiscal year, aiming to complete all such projects 
in an expeditious and cost-effective manner.
    Question 2a. Given that Congress has authorized your agencies to 
begin a pilot program to use public-private partnerships to expand and 
improve infrastructure on the border, how can GSA/CBP better utilize 
these partnerships to complete and maintain current infrastructure?
    Answer. Section 559 of the Consolidated Appropriations Act, 2014, 
Pub. L. 113-76 (Section 559), became law on January 17, authorizing CBP 
and GSA to accept donations of real property, personal property 
(including monetary donations) and non-personal services from private 
sector and Government entities. CBP and GSA may use donations accepted 
under Section 559 for activities associated with the construction, 
alteration, operations, or maintenance of new or existing ports of 
entry, including land acquisition, design, and the deployment of 
equipment and technologies.
    To better leverage the partnerships established under this 
authority to modernize and maintain its shared port of entry portfolio, 
CBP and GSA are developing a criteria and procedures framework (Section 
559 Framework) that, once implemented, they will use to systematically 
and equitably receive, evaluate, and select viable donation proposals. 
Moreover, the Section 559 Framework will describe the procedures that 
CBP, GSA, and potential donors will follow to collaboratively plan and 
develop selected donation proposals into executable infrastructure 
projects. CBP and GSA anticipate receiving a wide range of port 
facility improvement proposals, from equipment and technology upgrades 
to facility alteration and renovation projects.
    Question 2b. What progress are your agencies making towards 
implementing policy regarding PPPs and when do your agencies expect to 
accept applications?
    Answer. CBP and GSA are in the final stages of clearing the Section 
559 Framework through an interagency review process, which will result 
in the document being made public as required by statute. CBP 
anticipates launching its new program under the Section 559 authority, 
to include announcing the open period for submitting donation 
proposals, before the end of this fiscal year.
    Question 3a. How does CBP evaluate and prioritize investments in 
technology at ports of entry given the long time line for acquisitions 
approval and budget restraints of the Federal Government?
    Answer. U.S. Customs and Border Protection (CBP) prioritizes 
investments in land port of entry (LPOE) technology as part of the 
overall LPOE need evaluation and prioritization process, as they 
compete for the same limited appropriations received from Congress 
despite their sometimes longer acquisition lead times. The process 
begins with CBP conducting Strategic Resource Assessments (SRA) to 
evaluate facility needs against 60 distinct criteria in four 
categories: Mission and Operations; Security and Life Safety; Space and 
Site Deficiency; and Personnel and Workload Growth. CBP employs the SRA 
data, which includes an architectural and analytical assessment of 
LPOEs along with regional planning data and studies, to determine the 
needs across the entire portfolio. CBP then scores facilities by 
criticality of need, combining the data points collected in the SRA 
with the criteria of the four categories.
    As the next step, CBP applies two additional analyses to develop a 
prioritized investment, including a sensitivity analysis to determine 
if the results should consider factors unaccounted for through the SRA 
process, such as regional conditions, bilateral planning and 
international partner interests, or interests of other Federal, State, 
or local agencies.
    CBP is working with DHS's Science and Technology Directorate (S&T) 
to implement an effective quality assurance program that measures 
programmatic effectiveness, and introduces process improvements to 
decrease errors and eliminate waste in field and headquarter 
operations. As this program matures, CBP will feed findings regarding 
technology shortfalls and how they impact programmatic effectiveness 
into the prioritization process.
    Lastly, CBP coordinates with key stakeholders to evaluate the 
feasibility and risk associated with project implementation including 
environmental, cultural, and historic preservation requirements. CBP 
then arrives at a final prioritization of proposed projects and 
develops the capital investment plan in coordination with U.S. General 
Services Administration.
    Question 3b. How can CBP better adapt new technologies with 
existing infrastructure to expedite border crossings and limit the 
interference with legitimate border commerce?
    Answer. Leveraging technology within facility and staffing 
constraints to securely expedite legitimate trade and travel continues 
to be a CBP Office of Field Operations (OFO) priority. CBP successfully 
has accomplished this goal by utilizing Trusted Traveler Program 
processing at land and air ports of entry (POEs); Radio Frequency 
Identification (RFID) technology at land POEs originally implemented 
for Western Hemisphere Travel Initiative (WHTI) and expanded to Ready 
Lanes; and pedestrian reengineering to provide kiosks for travelers to 
swipe their own travel documents expediting the processing with the CBP 
Officer.
    Business transformation is a focus of every major OFO program 
initiative. OFO, in coordination with the Office of Information and 
Technology (OIT), has created a new way of doing business called the 
``Project Zone'' to leverage scarce resources for OFO projects and 
programs. The collaboration provides opportunities for OFO to continue 
to adapt new technologies within the existing infrastructure to 
expedite border crossings while facilitating legitimate trade and 
travel.
    In order to facilitate legitimate trade and travel, CBP actively 
collaborates with private stakeholders to transform operations or 
provide solutions when required infrastructure is limited or does not 
exist to meet an emerging need. For example, CBP recently conducted an 
alternatives analysis to determine the viability of accommodating new 
rail service by Rocky Mountaineer from Vancouver, British Columbia to 
Seattle, Washington. This analysis included an assessment of 
appropriate operational alternatives, costs associated with those 
alternatives and the identification of potential operational risks. CBP 
deployed a mobile device solution to facilitate passenger processing 
leveraging wireless access the railway provided. This solution proved 
successful and CBP has deployed it to the maritime environment to 
process cruise ships where there is limited to no infrastructure in 
place.
    Automated Passport Control (APC) is another CBP program developed 
through a public-private partnership, which expedites the entry process 
for U.S. and Canadian citizens and eligible Visa Waiver Program 
international travelers by providing an automated process through CBP's 
Primary Inspection area at participating airports. Travelers use self-
service kiosks operated by a private vendor to provide responses to 
customs declaration questions and biographic information. APC is a free 
service to the traveler and does not require pre-registration or 
membership. Travelers using APC experience shorter wait times, less 
congestion, and faster processing. APC is now available in 20 
international arrival airports and two preclearance airports.
    CBP is currently working with S&T to evaluate the use of biometrics 
for exit, which ultimately we will use to facilitate the entry process. 
The evaluation includes how we can integrate the technology with 
existing facilities to increase throughput. S&T and CBP are using a 
test facility that mimics airport facilities so the testing will be 
realistic. The testing includes using test subjects to use the 
technology in realistic facility setting measuring the impacts of the 
various technologies and placement within the facility on throughput 
and user experience as well as the accuracy of the technology.
    CBP is also working with S&T to strengthen security and trade 
facilitation missions by utilizing risk-based strategies, and applying 
a multi-layered approach to containerized cargo security. CBP's efforts 
in collaboration with S&T include: Developing standards to enable the 
use of shipper/carrier-provided data in CBP cargo targeting, as well as 
developing technologies and technology upgrades to improve CBP's cargo 
screening and cargo validation capabilities. Ultimately, these efforts 
will leverage existing infrastructure where possible to enhance 
security and improve throughput at the POEs to expedite legal commerce 
and travel.
    Additionally, CBP is working with S&T to develop low-cost upgrades 
for legacy non-intrusive inspection (NII) systems as an alternative to 
acquiring new high performance/high maintenance machines. This effort 
will enable CBP to maintain robust inspection regimes while enhancing 
security and improving throughput at the POEs to expedite legal 
commerce and travel.
    In order to facilitate legitimate trade, CBP is planning to expand 
mobile technologies for processing at the border. To better adapt new 
technologies, OFO and OIT have developed a proof of concept using 
mobile technology to provide CBP Agriculture Specialists the ability to 
inspect cargo and enter inspection results remotely for immediate 
release. The proof of concept demonstrated an immediate benefit to the 
trade community.
    To simplify documentation for export and import, the International 
Trade Data System (ITDS) will establish a single portal system for the 
collection and distribution of trade data. Currently, some 47 Federal 
agencies and CBP are involved in the largely manual and paper-based 
trade process, which is costly and time-consuming for both the 
Government and the international trade community. Through the ITDS 
initiative, the Federal Government is creating a Single Window to 
transform and streamline the trade process, thereby supporting economic 
competitiveness. The Automated Commercial Environment (ACE) will become 
this Single Window--the primary system through which the international 
trade community submits import and export documentation that all 
Federal agencies require. Through ACE, Federal agencies will have more 
efficient automated visibility to shipment data, facilitating their 
import or export assessments at the border and regulating the flow of 
legitimate trade while also improving security, health, and safety of 
cargo.
         Questions From Honorable Tom Marino for Michael Gelber
    Question 1. What is the process and how long does it take for GSA 
to begin work on a new Port of Entry compared to the time frame to 
enhance, expand, or improve an existing, established border operation 
once funding has been authorized? When existing ports of entry have 
tangible needs and even phased renovation or enhancements under way, 
why wouldn't those be completed before initiating new ports of entry, 
especially within the same traffic corridor? Does GSA/CBP have any 
obligation to complete projects that have been authorized and initiated 
at existing ports of entry before contemplating new ports of entry?
    Answer. When prioritizing new construction or major expansions at 
existing land ports of entry (LPOE), GSA looks to CBP's 5-year capital 
plan. CBP develops its 5-year plan, in coordination with GSA, using a 
variety of metrics, including traffic information, security issues, and 
detailed feasibility studies developed. At times, projects are broken 
into phases for a number of reasons including facilitating phased 
construction of a complex project that requires the continued operation 
of the LPOE. GSA and CBP work together to request construction funding 
to advance these priorities.
    The construction duration of a given LPOE project depends on a wide 
range of factors, including the potential need to acquire a site, the 
scale of the project, international cooperation, and permitting issues. 
Generally, once a port is included in the President's budget, the time 
frame for project delivery is quite similar whether it is construction 
of a new LPOE or an expansion or improvement to an existing LPOE.
    Question 2. Given that Congress has authorized your agencies to 
begin a pilot program to use public-private partnerships to expand and 
improve infrastructure on the border, how can GSA/CBP better utilize 
these partnerships to complete and maintain current infrastructure? 
What progress are your agencies making towards implementing policy 
regarding PPPs and when do your agencies expect to accept applications?
    Answer. GSA has long-standing authority to accept unconditional 
gifts of property and has used this authority when State or local 
governments and, in a few cases, private-sector entities have elected 
to make donations in aid of a project or function under GSA's 
jurisdiction. In the case of a land port of entry (LPOE), these 
donations are made to realize the economic benefit that comes with a 
new or expanded port.
    Subsection 559(f) of the Consolidated Appropriations Act of 2014, 
Pub. L. 113-76, broadened GSA's and CBP's gift-acceptance authority, 
enabling both agencies to accept donations of real or personal property 
(including monetary donations) and non-personal services from private 
sector and Government entities. Any donation accepted under this 
provision may be used only for necessary activities related to the 
construction, alteration, operation, or maintenance of a new or 
existing LPOE, including land acquisition, design, and the deployment 
of equipment and technologies.
    Subsection 559(f) requires that CBP and GSA: (1) Establish criteria 
that identify and document their respective roles and responsibilities; 
(2) identify, allocate, and manage potential risk; (3) define clear, 
measurable objectives; and (4) publish criteria for evaluating 
partnership projects.
    Since the enactment of the legislation, CBP and GSA have 
coordinated closely to satisfy this statutory requirement and jointly 
developed the Section 559 Donation Acceptance Authority Proposal 
Evaluation Procedures & Criteria Framework (559 Framework). This 
document outlines the procedures and criteria that CBP and GSA will use 
systematically and equitably to receive, evaluate, select, plan, 
develop, and formally accept proposed donations under subsection 
559(f). These proposals may come from private corporations, public 
entities, municipalities, port authorities, consortiums, and any other 
private-sector or Government entities interested in donating real 
property, personal property, or non-personal services.
    The 559 Framework has been released and posted on both CBP and GSA 
websites to coincide with a program launch announcement that will 
include proposal submission procedures. The 559 Framework is available 
to all potential donors and will enable CPB and GSA to evaluate the 
operational and nonoperational merit of each proposal, based on the 
published evaluation criteria.
    Question 3a. How does CBP evaluate and prioritize investments in 
technology at ports of entry given the long time line for acquisitions 
approval and budget restraints of the Federal Government?
    Question 3b. How can CBP better adapt new technologies with 
existing infrastructure to expedite border crossings and limit the 
interference with legitimate border commerce?
    Answer. Question No. 3 is for CBP, not GSA.

                                 [all]
</pre></body></html>
